Office of
Inspector
General

Medicaid Integrity
Program Report
for Fiscal Year 2012




                       March
                       2013
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012




                               http://oig.hhs.gov
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                                                                       Table of Contents




                           Office of Inspector General
              Medicaid Integrity Program Report for Fiscal Year 2012


FY 2012 Funding for Medicaid Integrity Activities -------------------------------------------------------- 1

         Overlap in Oversight Activities ------------------------------------------------------------------------------ 2

         Allocation of Statutory Funding Streams ------------------------------------------------------------- 2

FY 2012 Medicaid Activities and Results ------------------------------------------------------------------------3

         OIG Participation in FY 2012 Medicaid-Related Congressional Hearings ---------3

         Medicaid-Related Beneficiary Safety and Quality-of-Care Issues --------------------- 4
             Quality of Care for Waiver Program Beneficiaries ---------------------------------------------------------------------------------- 4
             Vaccines for Children Mismanaged in Storage ---------------------------------------------------------------------------------------- 4
             Nursing Home Services Found Worthless ------------------------------------------------------------------------------------------------5

         Medicaid Wasteful Spending ---------------------------------------------------------------------------------5
             Developmental Centers—Excessive Daily Rates (New York) -----------------------------------------------------------------5
             Prescription Drugs—Multitier Strategy Would Fine-Tune Medicaid Pricing --------------------------------------- 6
             Prescription Drug Rebates—Medicaid Managed Care --------------------------------------------------------------------------- 6

         Improper State Claims for Federal Reimbursement ------------------------------------------- 6
             HCBS Waivers—Room-and-Board Costs (South Carolina) --------------------------------------------------------------------- 7
             HCBS Waivers—Noncompliant Providers (New Jersey, New York)------------------------------------------------------- 7
             Personal Care Services—Documentation, Other Errors (New Mexico, New Jersey, Missouri) ----------- 8
             Continuing Day Treatment Services Improperly Claimed (New York) ------------------------------------------------- 9
             Adult Mental Health Rehabilitation (New Jersey)----------------------------------------------------------------------------------- 9
             Nonemergency Medical Transportation Services Improperly Claimed (New York) --------------------------- 10
             Family Planning—Pharmacy and Sterilization Claims (North Carolina, Wyoming, Oregon) ------------- 10
             Therapy Services—Payments Exceeded State Limits----------------------------------------------------------------------------- 11
             Prescription Drugs—State Controls Over Drug Expenditures Inadequate ------------------------------------------- 11
             Part B Premiums—Claims for State-Paid Premiums (Nevada) ------------------------------------------------------------ 12
             Medicare Deductibles and Coinsurance—State Plan Rates (Montana, Nebraska) ------------------------------ 12
             Administrative Costs—Unallowable Provider Training Costs (Pennsylvania) ----------------------------------- 13
             Administrative Costs—Unallowable Salaries, Operating Costs, Other Issues (New Jersey) --------------- 13
             Improper Claims for Individuals Concurrently Enrolled in Medicaid and the Children’s Health
               Insurance Program (Alabama) ------------------------------------------------------------------------------------------------------------ 14

         Improper Quarterly Statements and Adjustments -------------------------------------------- 14
             Adjustments Made at Improper Rate (Maine) --------------------------------------------------------------------------------------- 14
             Calculation, Documentation Errors (Virgin Islands) ----------------------------------------------------------------------------- 15
             Adjustments for Excess Contractor Profits (Texas) ------------------------------------------------------------------------------- 15
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                                                                                         Table of Contents


             Adjustments for State Collections of Overpayments (Delaware) --------------------------------------------------------- 15
             Overpayments Not Fully Reported (New Jersey)----------------------------------------------------------------------------------- 16
             Federal Share of Collections Improperly Retained (Multiple States) --------------------------------------------------- 16
             Improper Reporting of Overpayments and Collections (Illinois, Oklahoma) -------------------------------------- 17
             Managed Care—Federal Share of Excess Capitation Payments (Pennsylvania) --------------------------------- 17

         Medicaid Fraud and Abuse ---------------------------------------------------------------------------------- 18
             Medicaid Integrity Contractors’ Performance Hindered ----------------------------------------------------------------------- 18
             Managed Care—Employment of Excluded Individuals ------------------------------------------------------------------------- 19
             Managed Care—Fraud and Abuse Concerns Remain Despite Safeguards ------------------------------------------- 19

         State Medicaid Fraud Control Unit Onsite Reviews ------------------------------------------ 20

         Joint Investigations With State Medicaid Fraud Control Units ------------------------ 20

         Other Medicaid-Related Cases and Settlements ------------------------------------------------ 22
             Pharmaceutical Companies --------------------------------------------------------------------------------------------------------------------- 22
             Pharmacists------------------------------------------------------------------------------------------------------------------------------------------------ 23
             Drug Trafficking --------------------------------------------------------------------------------------------------------------------------------------- 23
             Hospitals ---------------------------------------------------------------------------------------------------------------------------------------------------24
             Personal Care Services -----------------------------------------------------------------------------------------------------------------------------24
             Nursing Homes -----------------------------------------------------------------------------------------------------------------------------------------24
             Clinics -------------------------------------------------------------------------------------------------------------------------------------------------------- 25
             Medical Equipment and Supplies ------------------------------------------------------------------------------------------------------------ 25
             Laboratories -------------------------------------------------------------------------------------------------------------------------------------------- 26
             Managed Care Companies----------------------------------------------------------------------------------------------------------------------- 26



Appendix A – FY 2012 Medicaid Audit and Evaluation Reports . . . . 29
Appendix B – OIG Open Recommendations From Prior Fiscal Years . . . . 37
Appendix C – FY 2013 Medicaid Work Plan . . . . 43
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                           FY 2012 Funding, Activities, and Results




                             Office of Inspector General
                Medicaid Integrity Program Report for Fiscal Year 2012


FY 2012 Funding for
Medicaid Integrity Activities
During fiscal year (FY) 2012, the Office of Inspector General (OIG) of the Department of
Health and Human Services (HHS) used funding from two sources to oversee the integrity of
Medicaid activities: the Health Care Fraud and Abuse Control (HCFAC) program, created by the
Health Insurance Portability and Accountability Act of 1996 (HIPAA), and the Medicaid Integrity
Program (MIP), created by the Deficit Reduction Act of 2005 (DRA). Following are descriptions of
each funding source.
Heath Care Fraud and Abuse Control Program. The HCFAC program was established by HIPAA to be
under the joint direction of the Attorney General and the Secretary of HHS, acting through the
Inspector General. Funds are appropriated in amounts that the Secretary and Attorney General
jointly certify as necessary to finance antifraud activities, up to ceilings fixed by the legislation.
Certain of these funds are, by law, set aside for OIG “activities … with respect to Medicare and
Medicaid.” 1 HIPAA also requires the Attorney General and the Secretary of HHS to submit a joint
annual report to Congress identifying expenditures and accomplishments under the law (Social
Security Act, § 1817(k)(5)). These reports are available on the Web sites of both agencies
at: http://www.oig.hhs.gov/publications/hcfac.asp and http://www.usdoj.gov/dag/pubdoc.html.
Since FY 1997, the HCFAC program has been the primary source of funding for Medicare and
Medicaid fraud investigations and prosecutions by OIG and the Department of Justice (DOJ).
Beginning in FY 2009, OIG began receiving discretionary funding in support of HCFAC-related
activities to provide additional resources for program integrity work.
Medicaid Integrity Program. Section 6034 of the DRA established the MIP, through which OIG received
enhanced funding for fraud and abuse control activities “with respect to the Medicaid program”
(section 6034(c)). This funding was provided annually from FY 2006 through FY 2010 in addition to
OIG’s HCFAC resources and is available until expended. In FY 2012, MIP funds were still available.
Specific DRA requirements that pertain to OIG are described in Appendix C.




1   Social Security Act, § 1817(k)(3)(A).


                                                 Page 1
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                FY 2012 Funding, Activities, and Results



Overlap in Oversight Activities

Because there is an overlap among the oversight activities funded by HCFAC, MIP, and other sources,
our work relating to Medicaid may draw on funding from more than one source. For investigations
and prosecutions, it is particularly difficult (sometimes impossible) to accurately segregate
enforcement activities by funding stream. For example, even if we conduct an investigation
exclusively with MIP funds, the prosecution of that case could draw upon DOJ’s HCFAC funding and
the matter would be reportable pursuant to the requirements of both HCFAC and MIP. An overlap
could also occur when an investigation involves fraud in Medicaid and other Federal health care
programs, such as Medicare, as is often the case. For these reasons, this document does not
artificially divide accomplishments among funding sources; our Medicaid successes are typically the
result of combined funding from available resources.
Our audit, evaluation, and investigation work often requires more than a year to yield results. As a
consequence, many of the reviews and investigations summarized in this document reflect the results
of our work over several years that culminated in FY 2012.



Allocation of Statutory Funding Streams


                             Allocation of Statutory Funding Streams for
                           Medicaid Integrity Oversight, FY 2006 – FY 2012
                                               (Dollars in Millions)

                                                                                                Estimated
             Funding Appropriated to           Estimated OIG
                                                                                            Percentage of OIG
               OIG for Health Care            Obligations for
                                                                                               Health Care
                    Oversight                Medicaid Oversight        Estimated Total          Oversight
   Fiscal  HIPAA/        MIP &       HIPAA/      MIP &    OIG Obligations for                Obligations for
    Year   HCFAC         Other       HCFAC       Other    Medicaid Oversight                Medicaid Integrity
  2006       $160         $25          $45         –              $45                             28 %
  2007       $166         $25          $25        $29             $53                             28 %
  2008       $170         $25          $33        $29             $62                             31 %
  2009       $196         $81          $34        $31             $65                             29 %
  2010       $209         $25          $42        $34             $76                             32%
  2011       $228          $0          $37        $38             $76                             28%
  2012       $226          $0          $53        $19             $72                             28%
 Note: Numbers have been updated and are approximate because of rounding.


The table illustrates that a sizable portion of OIG's obligated funding has been used for Medicaid
oversight in recent years.




                                                      Page 2
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                              FY 2012 Funding, Activities, and Results



FY 2012 Medicaid
Activities and Results
Following are key Medicaid-related congressional testimonies, audit and evaluation reports, and
investigative outcomes that were included in the OIG spring and fall Semiannual Reports to Congress
for FY 2012. The Semiannual Reports summarize in 6-month increments significant OIG activities and
outcomes related to at-risk HHS programs and management issues. The Semiannual Reports and
corresponding audit and evaluation reports are available on OIG’s Web site at https://oig.hhs.gov.
(See Appendix A of this document for a complete list of Medicaid reports issued in FY 2012.)



OIG Participation in FY 2012
Medicaid-Related Congressional Hearings


9-20-2012       John Hagg, Director of Medicaid Audits, testified before
                two subcommittees of the U.S. House of Representatives
                Committee on Oversight and Government Reform on
                Medicaid payment rates for State-operated developmental
                centers in New York. Testimony.

                                                                               John Hagg,
                                                                               Director, Medicaid Audits

6-14-2012       Ann Maxwell, Regional Inspector General for Evaluation and
                Inspections, testified before the U.S. Senate Committee on
                Homeland Security and Governmental Affairs, Subcommittee
                on Federal Financial Management, Government Information,
                Federal Services, and International Security, on saving
                taxpayer dollars by curbing waste and fraud in Medicaid.
                Testimony.                                                     Ann Maxwell,
                                                                               Regional Inspector General
                                                                               for Evaluation and
                                                                               Inspections

12-07-2011      Gary Cantrell, Deputy Inspector General for Investigations,
                testified before the U.S. House of Representatives Committee
                on Oversight and Government Reform, Subcommittee on
                Government Organization, Efficiency and Financial
                Management, and Subcommittee on Health Care, District of
                Columbia, Census and the National Archives. Mr. Cantrell
                summarized OIG’s efforts to combat Medicaid fraud.             Gary Cantrell,
                Testimony                                                      Deputy Inspector General
                                                                               for Investigations




                                                   Page 3
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                            FY 2012 Funding, Activities, and Results




Medicaid-Related Beneficiary
Safety and Quality-of-Care Issues

As purchasers of health care, Medicare and Medicaid face challenges in ensuring quality of care for
their beneficiaries. Despite increased attention to patient safety, administrative, civil, and criminal
problems persist.


Quality of Care for Waiver Program Beneficiaries
Additional Federal Guidance, Onsite Reviews, Other Oversight Measures Needed. Of 25 States we
reviewed, 7 States did not have adequate systems to ensure the quality of care provided to
beneficiaries of the States’ home and community-based services (HCBS) waiver programs. Although
the Centers for Medicare & Medicaid Services (CMS) renewed the waiver programs in all seven of
these States, three did not adequately correct identified problems. Not only did the States fail to
correct the problems before renewal of their programs, but also they had not adequately addressed
the problems long after renewal. Also, CMS did not consistently use the few tools it has to ensure that
States correct problems related to quality of care. States must operate their HCBS waiver programs in
accordance with certain "assurances," including three related to quality of care. To meet these
assurances, States must demonstrate that they have systems to effectively monitor the adequacy of
service plans, the qualifications of providers, and the health and welfare of beneficiaries.
Recommendations—CMS should provide additional guidance to States for meeting the required
assurances, require States that do not meet one or more assurances to develop corrective action
plans, require at least one onsite visit before a waiver program is renewed and develop detailed
protocols for such visits, develop a broader array of approaches to ensure compliance with each of
the assurances, and make information about State compliance with the assurances available to the
public. Oversight of Quality of Care in Medicaid Home and Community-Based Services Waiver
Programs. OEI-02-08-00170. June 2012.


Vaccines for Children Mismanaged in Storage
Vulnerabilities in Vaccine Storage and Management Threaten Efficacy. A June 2012 report revealed
that providers in the Vaccines for Children (VFC) program exposed vaccines in storage to
inappropriate temperatures, which could reduce vaccine potency and efficacy, increasing the risk that
children are not provided with maximum protection against preventable diseases. The VFC program
is a Medicaid benefit that provides free vaccines to eligible children. CMS delegates the program’s
implementation to the Centers for Disease Control and Prevention (CDC), which purchases VFC
vaccines and distributes them to VFC providers. We found that vaccines stored by 76 percent of
45 selected providers were exposed to inappropriate temperatures for at least 5 cumulative hours.
We also found expired vaccines stored together with nonexpired vaccines, increasing the risk of
mistakenly administering the expired vaccine. The selected providers generally did not meet vaccine
management requirements or maintain required documentation.




                                                  Page 4
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Recommendations—CDC should work with VFC grantees and providers to ensure that VFC vaccines
are stored according to requirements; that expired vaccines are identified and separated from
nonexpired vaccines; that grantees better manage providers’ vaccine inventories; and that grantees
meet oversight requirements. Vaccines for Children Program: Vulnerabilities in Vaccine
Management. OEI-04-10-00430. June 2012.


Nursing Home Services Found Worthless
Georgia – Nursing Home Operator Sentenced to 20 Years for Providing Worthless Services. Former
nursing home operator George Houser was sentenced to 20 years of incarceration and ordered to pay
$6.7 million in restitution after being convicted of submitting claims to Medicare and Georgia
Medicaid for services provided to residents that were so deficient the judge determined them to be
“worthless.” During the trial, witnesses testified that there were food shortages, leaking roofs,
virtually no nursing or housekeeping supplies, poor sanitary conditions, major staff shortages, and
serious safety concerns at the three nursing homes that Houser and his wife owned and operated.
This is the first time that a defendant has been convicted after a trial in Federal court of submitting
claims for payment for worthless services.



Medicaid Wasteful Spending

The reports in this section describe the wasteful spending that occurs when Federal or State Medicaid
laws, policies, and methodologies fail to ensure that program costs are consistent with efficiency and
economy; reasonableness; and Medicaid’s role as a high-volume, prudent insurer/payer in the health
care marketplace.


Developmental Centers—Excessive Daily Rates (New York)
New York’s Rate-Setting Methodology for State-Operated Developmental Center Reimbursement Was
Inconsistent With Efficiency and Economy. The Medicaid daily rate for 15 selected State-operated
Intermediate Care Facilities (ICF) for individuals with intellectual and developmental disabilities
(developmental centers) was more than nine times the average daily rate for all other State-operated
and privately operated ICFs in State FY (SFY) 2009. If New York had used prior year actual costs as
the starting point in its rate methodology instead of its current method, the Federal Government
might have saved over $700 million in reimbursements in SFY 2009. The daily rate for the selected
developmental centers grew to $4,116 per day in SFY 2009—the equivalent of $1.5 million per year
for one Medicaid beneficiary. The growth occurred because the State’s rate-setting methodology
significantly inflated the Medicaid daily rate for the developmental centers and CMS did not prevent
the rate from increasing to its current levels.
Recommendation—CMS should ensure that New York’s Medicaid daily rate methodology for
State-operated developmental centers meets the Federal requirement that payment for services be
consistent with efficiency and economy. On the basis of this report and previous audits of payments
to public providers in other States, OIG reiterated in testimony before a congressional committee that
payments to public providers should be limited to the actual cost of providing services. Medicaid




                                                Page 5
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         FY 2012 Funding, Activities, and Results


Rates for New York State-Operated Developmental Centers May Be Excessive. A-02-11-01029. May
2012. Testimony.


Prescription Drugs—Multitier Strategy Would Fine-Tune Medicaid Pricing
States’ Pharmacy Reimbursement Methodologies Did Not Always Reflect Pharmacies’ Actual Costs for
Major Categories of Drugs. States could better approximate pharmacies’ actual costs of drugs by
developing separate reimbursement methodologies for major categories of drugs, i.e., single-source
drugs, brand-name multiple-source drugs, and generic multiple-source drugs. Numerous OIG
reviews have found that the basis that States historically used for Medicaid drug reimbursements did
not represent pharmacies’ actual costs to acquire drug ingredients. As a result, States often have
overreimbursed pharmacies for those costs. This review evaluated the relationships between three
recognized pricing benchmarks and pharmacy invoice prices for Medicaid-reimbursed drugs and
found variations depending on whether the drugs were brand-name or generic.
Recommendation—CMS should encourage States to use the results of this review when considering
changes to pharmacy reimbursement methodologies, including methodologies for the major
categories of drugs. Review of Drug Costs to Medicaid Pharmacies and Their Relation to Benchmark
Prices. A-06-11-00002. October 2011.


Prescription Drug Rebates—Medicaid Managed Care
Some States Did Not Collect All the Manufacturer Rebates They Are Due. The Patient Protection and
Affordable Care Act of 2010 (Affordable Care Act) expanded the Medicaid rebate requirement to
include drugs paid for through managed care organizations (MCOs). To realize the full savings under
the expansion, States must implement processes to collect accurate drug utilization data from MCOs
and invoice and collect rebate payments from manufacturers. Of 22 States we identified that paid for
prescription drugs through MCOs during our period of review, 10 did not invoice manufacturers and
collect the rebates they were due. The actions were not taken because, for example, States had to
complete programming changes to the systems that process MCO claims.
Recommendation—CMS should follow up with the 10 States that had not collected rebates for drugs
dispensed to Medicaid MCO beneficiaries and take action to enforce rebate collection if
necessary. States' Collection of Medicaid Rebates for Drugs Paid Through Medicaid Managed Care
Organizations. OEI-03-11-00480. September 2012.



Improper State Claims
for Federal Reimbursement

States and the Federal Government jointly fund Medicaid. States sometimes inadvertently or
inappropriately cause the Federal Government to pay more than its correct share of Medicaid costs.
This condition typically occurs when States pay too much on the basis of improper billings by
providers or suppliers. Billings are considered improper when, for example, required documentation
in patients’ medical files is missing or insufficient; the items or services billed were not medically
necessary; the services were not provided; the billings contained errors, such as miscoding; or other



                                                Page 6
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


State or Federal requirements for payment were not met. States do not always readily identify such
problems before claiming Federal reimbursement. States may also improperly claim Federal
reimbursement for other types of costs, such as administrative costs, for which requirements are not
met, or they may claim Federal reimbursement at the wrong rates. Following are reports issued in
FY 2012 that revealed improper State claims for Federal reimbursement.


HCBS Waivers—Room-and-Board Costs (South Carolina)
Unallowable Room-and-Board Costs Claimed by South Carolina. South Carolina improperly claimed
about $4.8 million (Federal share) of unallowable room-and-board costs under an HCBS intellectual
and related disabilities waiver program. The State’s controls were inadequate to ensure that
applicable Federal law and State guidance were followed. The State did not detect errors or
misstatements on local participating entities’ cost reports. Also, the State did not prescribe a uniform
format for the local entities to follow when preparing cost reports. Rather, each local entity prepared
its cost reports in its own format, making it difficult to identify when unallowable costs were claimed.
Recommendations—South Carolina should refund to the Federal Government the improperly claimed
$4,832,975 Federal share. The State should remove room-and-board-related administrative and
general costs from future waiver program cost reports, develop a uniform cost reporting process and
require that participating entities follow the process, and strengthen cost report review
procedures. South Carolina Claimed Some Unallowable Room and Board Costs Under the Intellectual
and Related Disabilities Waiver. A-04-11-04012. September 2012.


HCBS Waivers—Noncompliant Providers (New Jersey, New York)
Individual Plans of Care, Documentation, Insufficient Policies and Procedures. Three reports
revealed that claims for Federal reimbursement for Medicaid HCBS in New Jersey and New York
were unallowable because they did not meet certain Federal and State requirements. Policies and
procedures for overseeing and administering the waiver programs were not adequate to ensure that
providers claimed reimbursement only for services actually provided and maintained all the required
documentation to support the services billed and to ensure that waiver program services were
provided to beneficiaries only when rendered pursuant to written plans of care. For example, at one
provider, beneficiaries’ plans of care were not reviewed by a physician every 60 days, as required.

•   Recommendations—New Jersey. Refund to the Federal Government the estimated $60,740,637
    in improperly claimed Federal reimbursements; ensure that providers bill only for documented,
    allowable Community Care Waiver program services that are provided only to beneficiaries for
    whom there are completed and approved individual habilitation plans; and ensure and document
    that all beneficiaries approved for services have been assessed and certified to need the
    designated level of care. Medicaid Payments for Services Under New Jersey’s Section 1915c
    Community Care Waiver. A-02-10-01029. April 2012.

•   Recommendations—New York. Refund to the Federal Government an estimated $7,772,807 in
    improperly claimed Federal share reimbursements and strengthen policies and procedures to
    ensure that providers bill only for services actually provided, maintain the required
    documentation, and provide services pursuant to written plans of care. New York Claimed
    Unallowable Costs for Services by NYC Providers Under the State’s Developmental Disabilities
    Waiver Program. A-02-10-01027. August 2012.



                                                 Page 7
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                            FY 2012 Funding, Activities, and Results


•   Recommendations—New York. Refund the improperly claimed $8,177,970 Federal share and
    improve its monitoring of the reviewed provider and its other contracted home health providers
    to ensure compliance with Federal and State requirements. Review of Selected Medicaid Home
    Health Services Claims Made by Jewish Home and Hospital Lifecare Community Services –
    Manhattan LTHHCP. A-02-10-01002. April 2012.


Personal Care Services—Documentation, Other Errors (New Mexico,
New Jersey, Missouri)
Inadequate Certifications, Inadequate Documentation, Other Errors Associated With Provider Claims
to States. New Mexico, New Jersey, and Missouri improperly claimed Federal reimbursement for
personal care services claims submitted by providers that did not comply with certain Federal and
State requirements; the claims were therefore ineligible for Federal reimbursement. Examples of
personal care services include, but are not limited to, meal preparation, shopping, grooming, and
bathing. The deficiencies included inadequate personal care attendant qualifications and
certifications; lapses in authorizations, in-service education for personal care attendants, nursing
supervision, documentation of services, nursing assessments, and certification; and various
documentation deficiencies, including no documentation of supervisory visits, unsupported units of
service claimed, no documentation of physician authorization, and lack of State approval for personal
care services provided by certain caregivers. Personal care services may be provided to individuals
who are not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for
individuals with intellectual disabilities, or an institution for mental diseases.

•   Recommendations—New Mexico. Refund to the Federal Government the estimated $404,817
    Federal share paid for unallowable personal care services and ensure that personal care services
    providers maintain evidence that they complied with Federal and State requirements. Review of
    New Mexico Medicaid Personal Care Services Provided by Clovis Homecare, Inc. A-06-09-00117.
    June 2012.

•   Recommendations—New Mexico. Refund to the Federal Government the Federal share,
    estimated at $4,483,492, of the State’s payments for unallowable personal care services and
    ensure that personal care services providers maintain evidence that they comply with Federal
    and State requirements. Review of New Mexico Medicaid Personal Care Services Provided by
    Heritage Home Healthcare. A-06-09-00063. May 2012

•   Recommendations—New Mexico. Refund $889,000 to the Federal Government and ensure that
    personal care services providers maintain evidence that they comply with Federal and State
    requirements. Review of New Mexico Medicaid Personal Care Services Provided by Ambercare
    Home Health. A-06-09-00062. March 2012.

•   Recommendations—New Jersey. Refund an estimated $774,274 to the Federal Government and
    direct the provider to ensure that all of its offices comply with Federal and State
    requirements. New Jersey Did Not Always Claim Federal Medicaid Reimbursement for Personal
    Care Services Made by Bayada Nurses, Inc., in Accordance With Federal and State Requirements. A-
    02-10-01001. September 2012.
•   Recommendations—New Jersey. Refund $145 million to the Federal Government and improve
    its monitoring of the personal care services program to help ensure compliance with Federal and




                                                  Page 8
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


    State requirements. Review of Medicaid Personal Care Claims Submitted by Providers in
    New Jersey. A-02-09-01002. December 2011.
•   Recommendations—Missouri. Refund an estimated $26,953,855 to the Federal Government,
    implement procedures to ensure that it adequately supports the costs claimed for personal care
    services and maintains the supporting documentation, and improves its policies and procedures
    for monitoring the personal care services program for compliance with Federal and State
    requirements. Missouri Claimed Federal Reimbursement for Unallowable Personal Care Services
    Claims. A-07-11-03171. September 2012.
Also see OIG Portfolio: Personal Care Services. OIG 12-12-01. November 2012.


Continuing Day Treatment Services Improperly Claimed (New York)
State Monitoring Did Not Ensure Compliance. More than half of the claims for continuing day
treatment (CDT) services that we reviewed did not comply with one or more of New York State’s
requirements for payment, resulting in unallowable Federal reimbursements. CDT is a form of clinic
services performed by nonhospital providers that New York includes among its licensed outpatient
programs. Providers did not properly document the type of CDT services billed, recipients’ clinical
progress, and/or recipients’ contacts with outpatient program staff. Although the State conducts
periodic onsite monitoring, its monitoring program did not ensure that providers complied with all
State requirements.
Recommendations—New York should refund $84.4 million to the Federal Government, work with the
State Office of Mental Health to issue guidance to providers regarding State requirements for claiming
Medicaid reimbursement for CDT services, and work with the State office to improve its monitoring
of the CDT program to ensure compliance with State requirements. Review of Medicaid Claims
Submitted by Continuing Day Treatment Providers in New York State Audit. A-02-09-01023.
October 2011.


Adult Mental Health Rehabilitation (New Jersey)
Guidance, Monitoring Needed To Curb Deficiencies. New Jersey improperly claimed Federal
reimbursement for adult mental health rehabilitation claims that were unallowable because
community residence rehabilitation providers failed to comply with Federal and State requirements.
We found the following seven types of deficiencies: provider staff did not meet education and
training requirements; service plan requirements were not met; the providers’ staffing levels were
not consistent with the required level of care or the provider claimed a higher level of care than was
recommended; weekly progress notes were not documented; a registered nurse did not conduct a
face-to-face visit within the required time period; services were not documented, supported, or
allowable; and nursing assessment requirements were not met.
Recommendations—New Jersey should refund to the Federal Government an estimated $30,589,719
in improper Federal reimbursements, give community residence rehabilitation providers guidance to
help ensure that they comply with Medicaid State plan requirements, and improve monitoring of
providers’ claims to ensure compliance with Federal and State requirements. Review of Medicaid
Claims for Adult Mental Health Rehabilitation Services Made by Community Residence Providers in
New Jersey. A-02-09-01028. May 2012.




                                                Page 9
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results



Nonemergency Medical Transportation Services Improperly
Claimed (New York)
New York’s Policies and Procedures Did Not Ensure That Providers Complied With Requirements.
States are required to ensure necessary transportation for Medicaid beneficiaries to and from
providers. Providers in New York did not comply with Federal and State requirements for ordering,
documenting, providing, and claiming such services, and New York City’s social services district's
quality assurance mechanism did not ensure that services were properly provided.

•   Recommendations—New York State. Refund $13.5 million to the Federal Government;
    strengthen policies and procedures to ensure compliance with requirements for ordering,
    documenting, and claiming transportation services; and require the New York State social
    services districts to strengthen their quality assurance mechanism to ensure that services are
    properly provided. Review of Medicaid Payments for Nonemergency Medical Transportation
    Services Claims Submitted by Providers in New York State. A-02-09-01024. February 2012.
•   Recommendations—New York City. Refund an estimated $17 million to the Federal Government;
    resolve $2.9 million set aside for further analysis; and strengthen policies, procedures, and
    quality controls. Review of Medicaid Payments for Nonemergency Medical Transportation Services
    Claims Submitted by Providers in New York City. A-02-08-01017. November 2011.


Family Planning—Pharmacy and Sterilization Claims (North Carolina,
Wyoming, Oregon)
Documentation, Other Requirements Not Met. Reviews of North Carolina, Wyoming, and Oregon
Medicaid revealed that the States did not always claim Medicaid family planning reimbursement for
pharmacy and sterilization costs in accordance with Federal and State requirements. States furnish
family planning services and supplies to individuals of childbearing age who are eligible under the
State Medicaid plan and who desire such services and supplies. The Federal Government is
authorized to reimburse States for expenditures in family planning services at a 90-percent enhanced
rate. Claims lacked supporting documentation, and the States’ controls did not ensure that costs
were claimed pursuant to Federal and State requirements. Also, services provided under Oregon’s
Expansion Project for certain categories of individuals were unallowable for Federal reimbursement
in their entirety.

•   Recommendations—North Carolina. Refund to the Federal Government the pharmacy claim
    amounts (estimated at $1,383,713) and sterilization claim amounts (estimated at $3,665) that
    were improperly reimbursed at the enhanced rate for family planning, improve its controls to
    ensure that it claims the enhanced rate only for contraceptive drugs that physicians prescribe for
    family planning, and ensure that sterilization consent forms are completed in accordance with
    Federal regulations. North Carolina Incorrectly Claimed Enhanced Federal Reimbursement For
    Some Medicaid Services That Were Not Family Planning. A-04-10-01089. June 2012.
•   Recommendations—Wyoming. Refund $1,348,942 in improper Federal reimbursements, review
    costs for inpatient sterilization procedures for quarterly reporting periods after our audit period
    and refund any overpayments, and strengthen internal controls to ensure that costs for Medicaid
    family planning sterilization procedures are claimed in accordance with Federal and State
    requirements. Wyoming Incorrectly Claimed Enhanced Reimbursement for Medicaid Family
    Planning Sterilization Costs. A-07-11-01100. August 2012.


                                                Page 10
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                           FY 2012 Funding, Activities, and Results


•   Recommendations—Oregon. Refund an estimated $1.7 million to the Federal Government,
    resolve $3 million set aside for further analysis, limit income eligibility in accordance with
    Federal requirements, verify clients’ incomes and Social Security numbers, and strengthen
    controls to prevent and detect duplicate claims.) Oregon Improperly Claimed Federal
    Reimbursement for Medicaid Family Planning Services Provided Under the Family Planning
    Expansion Project. A-09-11-02010. January 2012.


Therapy Services—Payments Exceeded State Limits
Improper Payments Easily Preventable. A relatively low number of claims for therapy services were
paid improperly; however, most of the errors that occurred were easily preventable. Medicaid law
allows States to provide optional services—such as physical; occupational; and speech, hearing, and
language (speech) therapy—through their Medicaid State plans. States may establish limits on the
amount, duration, and scope of the Medicaid services they will cover, as long as each service is
sufficient to reasonably achieve its purpose. State-established limits include the number of therapy
services, hours of therapy services, or total dollar amount the Medicaid program will pay for each
beneficiary during a certain period. All of the eight States that we selected for indepth review had
safeguards to prevent payments in excess of State limits. Despite the safeguards, we identified
improperly paid therapy services claims totaling approximately $744,000 in six of the eight States.
Additional claims that were potentially improper were identified in three of the eight States. Several
States reported improving their program integrity safeguards to address our findings.
Recommendations—CMS should work with States to prevent Medicaid payments for therapy services
in excess of State limits and follow up on the inappropriate claims identified in our review. Medicaid
Payments for Therapy Services in Excess of State Limits. OEI-07-10-00370. March 2012.


Prescription Drugs—State Controls Over Drug Expenditures Inadequate
Neither CMS Nor the 14 States Reviewed Had Adequate Controls To Ensure That Drug Expenditures
Complied With Federal Requirements for Payment. Cost savings to Medicaid could be realized by
implementing several corrective actions that we outlined. Federal Medicaid funding is generally
available for covered outpatient drugs if the drug manufacturers have rebate agreements with CMS
and pay rebates to the States. The agreements require manufacturers to provide a list of all covered
outpatient drugs to CMS quarterly. CMS includes the drugs on a quarterly Medicaid drug tape (list),
makes adjustments for any errors, and sends the tape to the States. We found that manufacturers did
not always provide information in a timely manner to CMS, and States generally did not use the
quarterly drug tapes to determine whether a drug was eligible for coverage and did not contact CMS
to determine whether a drug was eligible for coverage if it was not on the tapes. The drug tapes
indicate the drugs’ termination dates (if applicable), specify whether the drugs are less than effective,
and include information that the States use to claim rebates from manufacturers.
Recommendations—CMS should require States to review and reject all current and prior claims for
terminated drugs. It should instruct States to develop and implement controls to ensure that drug
expenditures claimed for Federal reimbursement comply with all Federal requirements, report
terminated drug expenditures to States quarterly, and require States to use the reports to ensure
compliance. CMS should also work with drug manufacturers to ensure that the information on the
quarterly drug tapes is complete and accurate and take appropriate action against manufacturers if
they do not provide timely information, develop policies and procedures to inform States



                                                 Page 11
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                             FY 2012 Funding, Activities, and Results


immediately when a drug has been terminated, and instruct States to claim expenditures only for
drugs dispensed before the termination dates. Multi-State Review of Centers for Medicare & Medicaid
Services Medicaid Drug Expenditure Controls. A-07-10-06003. October 2011.


Part B Premiums—Claims for State-Paid Premiums (Nevada)
Documentation and Eligibility Issues Associated With State’s Improper Part B Premium Payments.
Nevada did not always comply with Federal requirements when claiming Federal reimbursement for
Medicare Part B program premiums that it paid on behalf of Medicaid beneficiaries. Federal law
allows State Medicaid programs to enter into an arrangement with CMS known as the buy-in
program. The buy-in program allows a participating State Medicaid program to enroll certain dual
eligibles (individuals who are entitled to both Medicare and some form of Medicaid benefits) in Part
B and to pay the monthly premiums on their behalf. The State may then claim the monthly premium
expenditures for Federal reimbursement. We identified numerous improper State claims for Federal
reimbursement and set aside additional amounts for resolution involving public welfare additions
(i.e., individuals added to a State’s buy-in list on the basis of a Social Security Administration notice to
CMS that the individuals appear to be eligible for Medicaid).
Recommendations—Nevada should refund to the Federal Government $194,891 (Federal share) of
unallowable Part B premiums claimed, identify any portion of the $878,263 in Part B premiums
claimed for public welfare additions that was unallowable and refund the Federal share, identify the
Part B premiums for which the State did not have adequate supporting documentation and refund the
Federal share, delete ineligible individuals from the buy-in program and refund the Federal share of
the Part B premiums claimed, identify ineligible individuals added through the public welfare
addition procedure and take appropriate corrective action, establish procedures to reduce the
number of erroneous public welfare additions, and ensure that it can support the Federal share
claimed for each Part B premium. Nevada Improperly Claimed Federal Reimbursement for Medicare
Part B Premiums Paid on Behalf of Medicaid Beneficiaries. A-09-11-02024. July 2012.


Medicare Deductibles and Coinsurance—State Plan Rates (Montana,
Nebraska)
Lack of Policies and Procedures Fostered Noncompliance. Montana and Nebraska did not always claim
Medicaid payments for Medicare deductibles and coinsurance for services whose payments are
limited to State Medicaid plan rates in accordance with Federal requirements and the approved State
plan. The States did not compare the Medicare payment to the State Medicaid plan rate because they
did not have policies and procedures requiring them to do so.

•   Recommendations—Montana (Part B). Refund to the Federal Government an estimated
    $1,113,789 in unallowable Medicaid payments and develop and implement policies and
    procedures to ensure that it compares the Medicare payment to the State Medicaid plan rate to
    determine the allowable Medicare Part B deductibles and coinsurance. Montana Did Not Properly
    Pay Medicare Part B Deductibles and Coinsurance for Outpatient Services. A-07-11-03172.
    June 2012.

•   Recommendation—Nebraska (Part A). Refund an estimated $5.5 million to the Federal
    Government. Review of Nebraska's Medicaid Payments for Dual Eligible Individuals' Medicare
    Part A Deductibles and Coinsurance. A-07-11-03161. February 2012.



                                                  Page 12
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         FY 2012 Funding, Activities, and Results


•   Recommendation—Nebraska (Part B). Refund an estimated $5.6 million to the Federal
    Government.) Nebraska Did Not Properly Pay Some Medicare Part B Deductibles and Coinsurance.
    A-07-11-03168. February 2012.


Administrative Costs—Unallowable Provider Training Costs
(Pennsylvania)
Training Activities Did Not Qualify as Administrative Costs. Pennsylvania did not comply with
Federal requirements when it claimed Medicaid administrative costs for the Pennsylvania Restraint
Reduction Initiative (Initiative). The claimed costs were for training nursing home providers and not
for administering the Medicaid program. CMS explicitly prohibits claiming provider training as
Medicaid administrative costs. Accordingly, Pennsylvania’s claims for Federal reimbursement of
Initiative costs for SFYs 1996-1997 through 2010-2011 as administrative costs were unallowable. In
1996, Pennsylvania launched the Initiative to train nursing home providers to reduce the use of
physical restraints in compliance with Federal regulations. The Initiative subsequently introduced
provider training to address other quality-of-life issues in nursing homes.
Recommendations—Pennsylvania should refund $3,001,536 in Federal funds for unallowable
administrative costs, refund the Federal share of unallowable Initiative costs claimed as
administrative costs after our audit period, and discontinue all future claims of such
costs. Pennsylvania Claimed Medicaid Administrative Costs for Provider Training Under Its Restraint
Reduction Initiative. A-03-11-00209. July 2012.


Administrative Costs—Unallowable Salaries, Operating Costs, Other
Issues (New Jersey)
Policy, Procedures Lacking; Calculations, Documentation Noncompliant. In FYs 2005 and 2006,
New Jersey included unallowable salaries and operating costs in the cost pool used to compute its
Medicaid administrative claim. The State improperly claimed Federal Medicaid reimbursement for
the cost of Medicaid administrative activities performed by staff of contracted community mental
health providers. In addition, the contractor that computed the Medicaid costs assigned Medicaid-
reimbursable random moment time study (RMTS) codes to workers' activities that were not
allowable or could not be documented as related to Medicaid and performed an RMTS that deviated
from acceptable statistical sampling practices. Also, the State used Medicaid eligibility rates that
could not be documented. Similar issues were found in FY 2007.

•   Recommendations—New Jersey 2005, 2006. Refund $22.5 million to the Federal Government,
    maintain supporting documentation for Medicaid-reimbursable activities, ensure that future
    calculations follow acceptable cost principles and CMS requirements, and maintain supporting
    documentation for Medicaid eligibility rates used in computations. Review of Medicaid
    Administrative Costs Claimed by New Jersey for State Fiscal Years 2005 and 2006. A-02-08-01009.
    March 2012.

•   Recommendations—New Jersey 2007. Refund $5 million to the Federal Government, resolve
    $8 million in Medicaid administrative costs set aside for further analysis, establish policies and
    procedures to follow acceptable statistical sampling practices, and maintain supporting
    documentation for rates used. Review of Medicaid Administrative Costs Claimed by New Jersey for
    State Fiscal Year 2007. A-02-07-01050. November 2011.



                                                Page 13
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        FY 2012 Funding, Activities, and Results



Improper Claims for Individuals Concurrently Enrolled in Medicaid and
the Children’s Health Insurance Program (Alabama)
Alabama Improperly Claimed the Federal Share for Concurrently Enrolled Individuals. The Children’s
Health Insurance Program (CHIP) allows States to provide health care coverage to uninsured children
in families whose incomes are too high to qualify for Medicaid but too low to afford private health
care coverage. Alabama improperly claimed the Federal share of CHIP costs for individuals who had
Medicaid or other health insurance coverage from October 1, 2009, through September 30, 2010.
States may not claim a Federal share of CHIP costs for individuals who are concurrently enrolled in
CHIP and Medicaid or who have other health insurance coverage. Alabama’s internal controls were
not adequate to prevent or promptly correct concurrent enrollments. The errors occurred because
State policy allowed for a coordination of benefits between CHIP and other health insurance
coverage.
Recommendations—We recommend that Alabama refund $1.5 million for the Federal share of costs
claimed on behalf of individuals who were concurrently enrolled in CHIP and Medicaid, refund
$153,000 (Federal share) for costs claimed on behalf of individuals enrolled in CHIP who had other
health insurance coverage, develop additional policies and procedures to prevent or promptly recoup
CHIP payments made on behalf of individuals who are identified as enrolled concurrently in
Medicaid, and revise the current policy that allows for a coordination of benefits between CHIP and
other health insurance coverage. Alabama Improperly Claimed Federal Funds for Children’s Health
Insurance Program Enrollees Who Had Medicaid or Other Health Insurance Coverage. A-04-11-08008.
September 2012.



Improper Quarterly Statements and Adjustments

States’ failure to report accurate data or make required quarterly adjustments may also cause the
Federal Government to pay more than its correct share of Medicaid costs. States report Medicaid
expenditures to CMS on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (Form CMS-64). The report must be submitted to CMS within 30 days after the end of each
quarter. This form shows Medicaid expenditures for the quarter being reported and any prior-period
adjustments. It accounts for overpayments, underpayments, and refunds received by the State.


Adjustments Made at Improper Rate (Maine)
Incorrect Rate Applied to Adjustments. Maine did not always use the correct Federal share percentage
when processing claim adjustments reported on the Form CMS-64. The Federal Government
reimbursed Maine $166 million (Federal share) for 1 million Medicaid claims that the State originally
paid and subsequently adjusted through the Form CMS-64 for calendar years 2005 through 2009.
Of that amount, $9,179,777 was incorrect. Errors occurred when the State subsequently processed
entirely new claims, including the adjustment amounts, as current expenditures at the current rate.
Recommendations—Maine should refund to the Federal Government $9,179,777 it improperly
claimed for Medicaid claim adjustments and ensure that it processes future adjustments using the
correct rate. Maine Did Not Always Make Correct Medicaid Claim Adjustments. A-01-12-00001.
July 2012.


                                               Page 14
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         FY 2012 Funding, Activities, and Results



Calculation, Documentation Errors (Virgin Islands)
Calculations Improper and Documentation Not Properly Retained. The U.S. Virgin Islands claimed
Federal Medicaid reimbursement for expenditures that were improperly calculated because
employees lacked policies and procedures for correctly preparing the Form CMS-64. The amounts
claimed were not adequately documented by reported expenditures. Supporting documentation
could not be located because a record retention policy had not been established.
Recommendations—The Virgin Islands should refund to the Federal Government $393,316 in
improperly calculated expenditures and establish policies and procedures for correctly preparing
Form CMS-64. Review of Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program in the U.S. Virgin Islands for the Quarter Ended September 30, 2009. A-02-11-01004.
April 2012.


Adjustments for Excess Contractor Profits (Texas)
Federal Share Understated and Required Project Approvals Not Obtained. A review of Form CMS-64
reports that Texas submitted to CMS revealed that Texas did not correctly report a Medicaid
Management Information System (MMIS) contractor’s profits that were in excess of the 11 percent
allowed by the contract. The State’s calculation erroneously understated the Federal share of the
excess profits.
Although other sampled MMIS expenditures Texas claimed for Federal reimbursements were
allowable and were claimed at the appropriate reimbursement rates, Texas did not obtain required
prior approvals from CMS for two projects in the sample. The projects included designing,
developing, and operating the MMIS. Federal regulations require States to seek prior approval from
CMS to claim Federal reimbursement for MMIS project costs estimated to exceed certain thresholds.
We also identified 16 other projects, which were not in the sample, that did not have the required
approvals.
Recommendations—Texas should refund $2,634,568 related to the Federal share of excess contractor
profits; obtain retroactive approval for the projects that did not have the required prior Federal
approval from CMS; and ensure that prior approval is obtained on future projects, as required by
Federal regulations. Texas Did Not Report Excess Contractor Profits in Accordance With Federal
Regulations. A-06-10-00062. August 2012.


Adjustments for State Collections of Overpayments (Delaware)
Collections Understated and Federal Share Miscalculated. Delaware did not comply with Federal
requirements to report all Medicaid overpayment collections. State officials said that they believed
the overpayments had been netted out of reported Medicaid expenditures but did not provide
support for such adjustments. The State did not properly report its collections for Medicaid
overpayments because it did not develop and implement effective internal controls to ensure
accurate reporting on Form CMS-64. Also, Delaware reported on Form CMS-64 collections for
overpayments that it identified as recoveries resulting from fraud and abuse investigations but
calculated a Federal share based on an incorrect rate. Using the correct rate, the State should have
reported a higher Federal share.




                                                Page 15
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Recommendations—Delaware should include $16,272,518 of unreported Medicaid overpayment
collections on the next Form CMS-64 and refund $10,080,378 to the Federal Government, identify
and report any unreported Medicaid overpayments collected before and after our audit period,
account for the incorrectly calculated Federal share for the collections resulting from fraud and abuse
investigations by refunding $2,391, apply the correct rate when reporting Medicaid overpayments on
Form CMS-64, and develop and implement internal controls that will enable the State to correctly
report and refund the Federal share of Medicaid overpayments on Form CMS-64. Delaware Did Not
Comply With Federal Requirements To Report All Medicaid Overpayment Collections. A-03-11-00203.
June 2012.


Overpayments Not Fully Reported (New Jersey)
Not All Overpayments Are Correctly Reported. For Federal FYs 2008 and 2009, New Jersey did not
report Medicaid overpayments totaling $2.8 million ($1.4 million Federal share) in accordance with
Federal requirements. Federal law requires the State to refund the Federal share of Medicaid
overpayments at the end of the 60-day period following the date of discovery, whether or not the
State has recovered the overpayment. Of the 180 overpayments we reviewed, 14 were only partially
reported or not reported on Form CMS-64. The remaining 166 were reported correctly. The State
also did not report all Medicaid provider overpayments within the 60-day time requirement. The
State did not properly report these overpayments because it had not developed and implemented
policies to ensure that overpayments were reported correctly on Form CMS-64.
Recommendations—New Jersey should include unreported Medicaid overpayments of $2,812,968 on
the CMS-64, refund $1,406,486 to the Federal Government, and develop and implement policies to
ensure that future Medicaid overpayments are reported on the correct Form CMS-64 in accordance
with Federal requirements. New Jersey Generally Reported Medicaid Overpayments in Accordance
With Federal Regulations. A-02-10-01009. September 2012.


Federal Share of Collections Improperly Retained (Multiple States)
Federal Share of Medicaid Collections To Be Recalculated in 35 States. We identified 35 States that
improperly retained the Federal share of collections (e.g., from overpayments to providers), which
reduce States’ expenditures in calculating the Federal share. Effective with the quarter ending
December 31, 2008, the American Recovery and Reinvestment Act of 2009 (Recovery Act)
temporarily increased the percentage of State Medicaid expenditures paid by the Federal
Government. When CMS calculated the additional funding for the first Recovery Act quarter, it did
not include States’ collections in that calculation. As a result, States improperly retained increased
funding. CMS retroactively provided additional Federal funds for the first Recovery Act quarter by
applying the increased percentage to expenditures each State had already submitted. A CMS official
stated that recalculating the Federal share of collections using the Recovery Act rate was the States’
responsibility.
Recommendations— CMS should recoup from 35 States $25,012,996 in retained funding; review
States’ Federal share calculations for collections reported in subsequent Recovery Act quarters and
recoup any overpayments related to the Recovery Act rate; and emphasize that States should
calculate the Federal share of collections for which they originally received amounts calculated at
higher, fixed-reimbursement percentages using those same percentages. States Inappropriately




                                                Page 16
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Retained Federal Funds Related to Medicaid Collections for the First Recovery Act
Quarter. A-06-11-00064. June 2012.


Improper Reporting of Overpayments and Collections (Illinois,
Oklahoma)
Errors Found in the Reporting of Overpayments and Collected Amounts. Pursuant to Federal law and
the “applicable credit” provisions of Office of Management and Budget Circular A-87, the Federal
share of recovered overpayments or other collections must be credited to the Federal award in the
quarter in which they are collected. Two reports below demonstrate State errors in the reporting of
uncollected overpayments (Illinois) and collected amounts (Oklahoma). Illinois did not report 24 of
the 27 overpayments we reviewed because of its unwritten policy of reporting overpayments
not involving fraud or abuse when the provider appeals process was completed, rather than at the
end of the 60-day period following discovery. Oklahoma did not properly report collections
associated with probate amounts and with fraud and abuse collections. Oklahoma inappropriately
subtracted probate collection amounts from its worksheet calculation because State officials
incorrectly believed that probate collections were associated with adjusted claims and wanted to
avoid duplicate reporting. Also, the State did not report the entire amount of its fraud and abuse
collections. In other instances, the State underreported and overreported the Federal share of
collections and applied incorrect share percentages.

•   Recommendations—Illinois. Include the unreported Medicaid overpayments we identified in its
    quarterly report to CMS, refund an estimated $9 million to the Federal Government, and ensure
    that future Medicaid overpayments that are in the appeals process are reported in accordance
    with Federal requirements. Review of Illinois' Reporting of Fund Recoveries in the Appeals Process
    on the Form CMS-64. A-05-11-00052. January 2012.

•   Recommendations—Oklahoma. Refund an estimated $14.8 million to the Federal Government;
    resolve $435,000 in unsupported adjusted claims we set aside for further analysis; ensure that
    documentation requirements are met; and establish review procedures to ensure that collections
    are correctly compiled, assigned, and reported. Review of Oklahoma Collections for the Medical
    Assistance Program for Calendar Years 2004 Through 2009. A-06-10-00057. January 2012.


Managed Care—Federal Share of Excess Capitation Payments
(Pennsylvania)
Poor Controls, Commingling of Funds Affect Federal Share Adjustments. Pennsylvania did not develop
and implement effective internal controls to identify and return to the Federal Government the
Federal share of excess managed care capitation payments recouped from counties’ Risk and
Contingency and Reinvestment funds. Pennsylvania recouped excess capitation payments from 12 of
24 counties we reviewed but did not refund the full Federal share in accordance with Federal
requirements. Also, the State was unable to identify the amount of State-only funds recouped from
Philadelphia County because the county’s reinvestment account commingled excess capitation
payments for both Federal Medicaid and State General Assistance enrollees.
Recommendations—Pennsylvania should refund $7,950,454 Federal share of excess capitation
payments returned by Philadelphia County and develop procedures to ensure that it refunds the
Federal share of excess capitation payments recouped from the Risk and Contingency and



                                                Page 17
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Reinvestment funds. Pennsylvania Did Not Refund the Full Federal Share of Recouped Excess Capitation
Payments From the Medicaid Behavioral HealthChoices Program. A-03-10-00204. June 2012.



Medicaid Fraud and Abuse

Medicaid faces multiple challenges in preventing and detecting fraud, including identifying
questionable patterns of billing, overpayments, and high rates of improper payments. Federal and
State Medicaid agencies monitor fraud through data analysis, audits, and investigations.


Medicaid Integrity Contractors’ Performance Hindered
CMS defined three types of Medicaid Integrity Contractors (MIC) to perform the program integrity
activities mandated in the DRA and to identify additional fraud, waste, and abuse—Review MICs,
Audit MICs, and Education MICs. Review MICs review State Medicaid claims data and identify
potential overpayments. Audit MICs audit specific providers and identify overpayments. Education
MICs educate providers and beneficiaries on program integrity issues.

•   Review MICs’ Performance Hindered by Poor Data. For the Review MICs that we examined,
    analytical assignments under the task orders did not result in recommendations of specific audit
    leads or identification of potential fraud leads. MICs identified problems with CMS’s information
    technology infrastructure data that limited their ability to accurately complete data analysis
    assignments. Because data were missing or inaccurate, the MICs inaccurately identified potential
    overpayments and may have overlooked some potential overpayments. States invalidated more
    than one-third of the potential overpayments in samples the MICs provided. CMS reported
    several initiatives underway to improve the data the MICs use.
    Recommendations—CMS should improve the quality of data that Review MICs can access for
    data analysis and require Review MICs to recommend specific audit leads. Early Assessment of
    Review Medicaid Integrity Contractors. OEI-05-10-00200. February 2012.

•   Audit MICs’ Performance Hindered Because Audit Targets Were Poorly Identified. Few of the audits
    assigned to Audit MICs from January through June 2010 identified overpayments. Of the 370
    audits assigned to Audit MICs, 81 percent either did not identify overpayments or were unlikely
    to identify them. Audit targets were misidentified because of data problems and because State
    program policies were applied incorrectly. The problematic audit targets caused MICs to
    duplicate efforts. Audit MICs reported spending significant preaudit time evaluating algorithms,
    reanalyzing system data, and ensuring the accurate application of State policies during audit
    target selection. According to CMS's data, an average of 3 months elapsed between the date CMS
    assigned audits to Audit MICs and the dates Audit MICs began the audits.
    Recommendation—CMS should increase collaboration among Audit and Review MICs, CMS, and
    States to eliminate duplication of efforts and improve target selections in States that opt not to
    partner in collaborative audits. Early Assessment of Audit Medicaid Integrity Contractors.
    OEI-05-10-00210. March 2012.

•   Status of Previously Identified Audit Targets Provided. Our April 2012 addendum report provides
    information and insights on 161 of 244 audit targets that CMS had assigned to Audit MICs. We



                                                Page 18
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        FY 2012 Funding, Activities, and Results


    found that as of February 1, 2012, Audit MICs had completed 127 of the 161 assigned audits of
    providers. An average of 10 months elapsed between the dates CMS assigned the audits to Audit
    MICs and the dates the Audit MICs reported their findings to CMS. Twenty-five of the completed
    audits identified overpayments, totaling $285,629. The remaining 102 completed audits found
    no overpayments. Thirty-four of the assigned audits had not been completed and were ongoing.
    The report does not contain recommendations. Status of 244 Provider Audits Identified Using
    Review Medicaid Integrity Contractor Analysis. OEI-05-10-00201.


Managed Care—Employment of Excluded Individuals
Few Excluded Individuals Found in Medicaid Managed Care. Of 248,869 individuals employed by
500 sampled providers, we identified 16 individuals who were excluded from participation in Federal
health care programs. Exclusions are typically imposed on the basis of convictions for program-
related fraud, patient abuse, or license revocations. Incorrect names and failure of contractors to
follow procedures contributed to the employment of the excluded individuals. Most providers
reported using a variety of safeguards to ensure that they do not employ excluded individuals. But
providers said that costs and resource burdens posed challenges in executing those safeguards.
Seven percent of providers in the 12 selected Medicaid managed care entities (MCE) do not check the
exclusions status of their employees; most of these providers lacked knowledge regarding exclusions.
The report does not contain recommendations. Excluded Individuals Employed by Providers Enrolled
in Medicaid Managed Care Entities. OEI-07-09-00632. September 2012.
A prior report recommended that CMS periodically remind States of their obligation to ensure that no
excluded providers receive Medicaid payments. Excluded Providers in Medicaid Managed Care
Plans. OEI-07-09-00630. February 2012.


Managed Care—Fraud and Abuse Concerns Remain Despite Safeguards
Despite Safeguards, MCEs Remain Concerned About the Prevalence of Fraud. CMS, States, and
Medicaid MCEs said that services billed but not rendered are their primary concern with respect to
fraud and abuse in Medicaid managed care. Other concerns include rendering services that are not
medically necessary, upcoding by providers, questionable beneficiary eligibility, and prescription
drug abuse by beneficiaries. All MCEs in our sample reported taking steps to meet Federal program
integrity requirements, and all States in our sample reported taking steps to oversee MCEs’ fraud and
abuse safeguards. Even so, they remained concerned about the prevalence of fraud.
Recommendations—CMS should require that State contracts with MCEs include a method to verify
with beneficiaries whether they received services billed by providers. CMS could require States to
implement one of several options we described. We also recommend that CMS update guidance to
reflect concerns expressed by MCEs and States and share best practices and innovative methods that
States and MCEs have applied. Medicaid Managed Care: Fraud and Abuse Concerns Remain Despite
Safeguards. OEI-01-09-00550. December 2011.




                                               Page 19
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results



State Medicaid Fraud Control Unit Onsite Reviews

OIG oversees the operation and performance of State Medicaid Fraud Control Units (MFCUs or Unit).
MFCUs are key partners with OIG in the fight against fraud, waste, and abuse in State Medicaid
programs. MFCUs investigate and prosecute Medicaid fraud as well as patient abuse and neglect in
health care facilities. In FY 2011, HHS awarded $156.7 million in Federal grant funds to 50 MFCUs
(including 1 in Washington, DC), which employed a total of 1,833 individuals. OIG certifies, and
annually recertifies, each MFCU. OIG collects information about MFCU operations and assesses
whether they comply with statutes, regulations, and OIG policy. OIG also analyzes MFCU performance
on the basis of 12 published performance standards and recommends program improvements, where
appropriate.
For three State reviews, OIG found no evidence of significant noncompliance with applicable laws,
regulations, or policy transmittals.

•   New York MFCU. From FYs 2008 through 2010, the New York Unit filed criminal charges
    against more than 400 defendants, obtained over 400 convictions, and was awarded more than
    $750 million in recoveries. Unit managers, staff, and stakeholders cited a number of noteworthy
    practices, including the Unit's approach to patient abuse and neglect cases, its list of ongoing
    investigations (created to avoid conflicts among investigating agencies), and its use of technology.
    Our report includes findings and recommendations with respect to staff size, training, written
    guidance and agreements, and file maintenance. Medicaid New York State Medicaid Fraud Control
    Unit: 2011 Onsite Review. OEI-02-11-00440. June 2012.

•   Missouri MFCU. For FYs 2008 through 2010, the Missouri Unit reported recoveries of
    $135 million, 13 convictions, and 36 civil settlements. The Unit exercised proper fiscal controls
    over its resources. The Unit expanded its definition of referrals and changed its process for
    closing older cases during FYs 2008 through 2010. The report includes findings and
    recommendations with respect to training, documentation, and records oversight. Medicaid
    Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review. OEI-07-11-00750. July 2012.

•   Kansas MFCU. For FYs 2009 through 2011, the Unit reported combined civil and criminal
    recoveries of nearly $66 million and 44 convictions. The Unit increased referrals through
    education and outreach efforts. Our report includes findings and recommendations with respect
    to internal controls, reporting, training, documentation, and reviews. Kansas State Medicaid
    Fraud Control Unit: 2012 Onsite Review. OEI-07-12-00200. September 2012.



Joint Investigations With
State Medicaid Fraud Control Units

Following are highlights of the outcomes of OIG’s joint investigations with MFCUs that were
concluded in FY 2012.
Virginia – Psychiatric Counseling and Treatment of Adolescents. Universal Health Services, Inc. (UHS),
and its subsidiaries, Keystone Education and Youth Services, LLC, and Keystone Marion, LLC, d/b/a



                                                Page 20
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Keystone Marion Youth Center UHS, agreed to pay over $6.85 million to resolve allegations that it
submitted false and fraudulent claims to Medicaid. Between October 2004 and March 2010, the
entities allegedly provided substandard psychiatric counseling and treatment to adolescents in
violation of Medicaid requirements. The United States alleged that UHS falsely represented Keystone
Marion Youth Center as a residential treatment facility providing inpatient psychiatric services to
Medicaid-enrolled children when in fact it was a juvenile detention facility. The United States further
alleged that neither a medical director nor licensed psychiatrist provided the required direction for
psychiatric services or for the development of initial or continuing treatment plans. The settlement
further resolved allegations that the entities filed false records or statements to Medicaid when they
filed treatment plans that falsely represented the level of services that would be provided to the
patients.
North Carolina – Nonemergency Dialysis-Patient Ambulance Transports. Thomas Hunter and Janet
Johnson-Hunter, owners and operators of Coastline Care, Inc., an ambulance and medical transport
company, entered into a settlement agreement for $950,178. The settlement resolved allegations
that, between January 2002 and October 2006, the Hunters submitted Medicare and Medicaid claims
for nonemergency dialysis-patient ambulance transports that were not medically necessary because
the patients could walk and/or were not bedridden. Specifically, the Hunters allegedly instructed
employees to omit the true condition of patients from the ambulance call reports when they did not
meet Medicare and Medicaid reimbursement requirements. As part of the settlement, Janet Johnson-
Hunter agreed to an exclusion from Federal health care programs of 15 years on the basis of her
conviction on charges of conspiracy to make false statements relating to health care matters. In the
criminal case, she was sentenced to 2 years and 4 months of incarceration and ordered to pay
$475,089 in restitution.
Pennsylvania – Attendant Care Services. Octavia Durham and her daughter, Anneikkia Durham Smith ,
were sentenced for their roles in a Medicaid fraud scheme. A relative of the pair who was a Medicaid
beneficiary received attendant care services from Durham pursuant to the Medicaid Commerce
Waiver Program. An initial investigation by the Pennsylvania MFCU revealed that the beneficiary
suffered from ulcers, bed sores, dehydration, and malnutrition and had missed numerous medical
appointments. A doctor who examined him in June 2009 recommended that the beneficiary be
immediately taken to an emergency room. On a number of Durham’s attendant timesheets, Smith
signed on behalf of the beneficiary, verifying Durham’s hours and services provided. Numerous
timesheets and claims submitted to Medicaid included hours that Durham allegedly provided care
when in fact Durham was employed elsewhere or was out of town or when the beneficiary was
hospitalized or was in a nursing home. Durham was sentenced to between 11.5 months to 23 months
of incarceration and ordered to pay $128,000 in restitution. Smith was ordered to pay $38,614 of this
amount jointly and severally with Durham and was sentenced to a 7-year term of probation. This was
a joint investigation with the MFCU of the Pennsylvania Attorney General’s Office and the
Montgomery County District Attorney’s Office.
New York – Stark Law and Anti-Kickback Statute Issues. Good Samaritan Hospital Medical Center (Good
Samaritan) and South Bay OB/GYN (South Bay) agreed to pay $1.75 million to resolve their liability
under the Civil Monetary Penalties Law (CMPL). Good Samaritan and South Bay disclosed that Good
Samaritan paid salary and benefits under a contract for clinical teaching, administrative, and
supervisory services to five physicians associated with South Bay. The salary and benefits were
above fair market value and violated the Stark Law and the Anti-Kickback Statute. This case was
resolved jointly with New York State’s Office of Medicaid Inspector General.




                                                Page 21
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                             FY 2012 Funding, Activities, and Results



Other Medicaid-Related Cases and Settlements


Pharmaceutical Companies
Massachusetts – GlaxoSmithKline: Marketing and Promotion Practices. In the largest health care fraud
settlement in U.S. history, the pharmaceutical company GlaxoSmithKline (GSK) entered into a global
criminal, civil, and administrative settlement and agreed to pay $3 billion to resolve its liability for its
marketing and promotion practices associated with several drugs. In three False Claims Act
settlement agreements, the United States alleged that GSK promoted several drugs, including Paxil,
Wellbutrin, Advair, Lamictal, and Zofran for off-label uses and paid kickbacks to induce the
prescription of certain drugs; improperly promoted the drugs Avandia, Advandmet, and Avandaryl
with false and misleading statements about the drugs’ safety; and violated the requirements of the
Medicaid drug rebate program. As part of the settlement, GSK also entered into a 5-year corporate
integrity agreement (CIA) with OIG that includes enhanced compliance provisions designed to
promote accountability and transparency in GSK’s business practices. In addition, the CIA requires
that GSK maintain its “Patient First” program, which is designed to compensate sales representatives
on the basis of the quality of services they provide to physicians instead of the volume of sales in their
territories. GSK also must establish and maintain a financial recoupment program for executives.
The investigation involved collaboration across several Government agencies, including the Food and
Drug Administration (FDA), the Federal Bureau of Investigation, the Defense Criminal Investigative
Service, the Office of Personnel Management, the Department of Veterans Affairs, the Department of
Labor, TRICARE, and the U.S. Postal Service. In addition, GSK entered into separate Medicaid-related
settlement agreements with multiple States.
Massachusetts – Merck, Sharp & Dohme: Marketing and Promotion Practices. Pharmaceutical
company Merck, Sharp & Dohme (Merck) agreed to pay over $628 million to resolve allegations that
it violated the False Claims Act by improperly marketing and promoting the drug Vioxx. Between
May 1999 and September 2004, Merck allegedly promoted Vioxx improperly for the treatment of
rheumatoid arthritis; made statements about the cardiovascular safety of Vioxx that were inaccurate,
misleading, and inconsistent with the FDA-approved labeling for the drug; and made false statements
about the safety of Vioxx to State Medicaid agencies. The settlement agreement is part of a global
criminal, civil, and administrative settlement under which Merck paid a total of $950 million plus
interest; pleaded guilty to a misdemeanor violation of the Food, Drug, and Cosmetic Act; and entered
into a comprehensive 5-year CIA with OIG. In addition, Merck is expected to enter into separate
Medicaid-related settlement agreements with 44 States.
New Jersey – McKesson Corporation: Accuracy of Reported Drug Prices. McKesson Corporation, a
distributer of pharmaceuticals and medical supplies, agreed to pay $187 million plus interest to
resolve allegations that it inflated pricing information for its prescription drugs. The United States
alleged that McKesson provided inflated average wholesale pricing figures—up to 25-percent
markups—to First Data Bank, a publisher of discount pricing. First Data Bank’s information was
used by State Medicaid programs to determine reimbursements and fee schedules for McKesson’s
prescription drugs. As a result of McKesson’s alleged provision of artificially inflated wholesale
pricing, State Medicaid programs reimbursed higher amounts for prescription medications than
should have been paid between August 2001 and December 2009. In addition, McKesson agreed to



                                                  Page 22
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                              FY 2012 Funding, Activities, and Results


pay over $151 million to 29 States and the District of Columbia to resolve its liability to the States
affected by the alleged price manipulation scheme.
New Jersey – Sandoz: Timeliness of Reporting Required Drug Price Data. Sandoz, a pharmaceutical
company, agreed to pay $230,000 to resolve its potential liability under the CMPL. Specifically, the
Government contended that Sandoz failed to submit in a timely manner pricing data required under
the Medicaid Drug Rebate Program.


Pharmacists
Massachusetts – HIV/AIDS Drugs Billed to Medicaid but Not Provided. Pharmacist Aloysius Nsonwu
was excluded from Federal health care programs for a minimum of 15 years after his convictions in
Federal and State courts for conspiracy to defraud the Government with respect to claims, Medicaid
false claims, larceny by false pretenses, and conspiracy. According to court documents, between
approximately December 2004 and February 2010, Nsonwu paid customers to bring in their
Medicare and Medicaid cards so he could submit false claims for HIV/AIDS medications without
dispensing the medications. Many of these individuals were not HIV positive. In addition, Nsonwu
obtained valid prescriptions from Medicaid beneficiaries who were HIV positive, but instead of
dispensing their medications, he paid them in cash for the prescriptions. Nsonwu was sentenced to
4 years and 1 day of incarceration and ordered to pay approximately $555,500 in restitution on his
State conviction. He was also ordered to pay approximately $147,700 in restitution on his Federal
conviction. In addition, his license to practice as a pharmacist was revoked by the Massachusetts
State Board of Pharmacy.
Indiana – False Prescriptions and Money Laundering. John Love, controlling member and pharmacist
for the Terre Haute Prescription Shop (THPS), was sentenced to 4 years and 3 months of
incarceration and ordered to pay $3.5 million in restitution for his role in a health care fraud and
money laundering scheme. Between January 2006 and September 2010, Love used his position at
the pharmacy to carry out a scheme to defraud the Indiana Medicaid Program. Love entered false
prescriptions in the THPS computer billing system, which, in turn, billed the Indiana Medicaid
Program.
Massachusetts – Kickbacks and False Claims. Ernest Melvin McGee, assistant pharmacist of Codman
Square Pharmacy (Codman), along with Codman’s owner, Amadiegwu Onujiogu, solicited paper
prescriptions from customers in exchange for illegal kickbacks and submitted false claims to
Medicare and Medicaid. McGee and Onujiogu targeted customers with HIV/AIDS and/or psychiatric
disorders, such as depression and bipolar disorder—conditions that require expensive
prescriptions. Many of the beneficiaries they recruited were drug addicts or homeless
persons. McGee was sentenced to 12 months and 1 day of incarceration and was ordered to pay
$292,635 and $60,037 in restitution to Medicaid and Medicare, respectively, for his role in the health
care fraud scheme. Onujiogu was convicted on the same charge and sentenced to 15 months of
incarceration.


Drug Trafficking
Florida – Illegal Possession, Intent To Distribute, and Distribution. Paul Wagner, Jr., a private citizen,
was sentenced to 7 years and 2 months of incarceration for possession with intent to distribute, as
well as for distributing the Schedule II drug oxycodone. Wagner was part of a fraud scheme that



                                                   Page 23
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                           FY 2012 Funding, Activities, and Results


entailed obtaining paper oxycodone prescriptions from a physician who prescribed the controlled
substances to Medicare and Medicaid beneficiaries, despite lack of medical necessity. Wagner then
assisted in filling the prescriptions and trafficking the drugs to street dealers.


Hospitals
Georgia – Claims for Allegedly Unnecessary and Dangerous Procedures. Satilla Health Services, Inc.,
d/b/a Satilla Regional Medical Center (Satilla), agreed to pay $840,000 to resolve its liability under
the False Claims Act. The agreement resolves allegations that Satilla submitted claims to Medicare
and Medicaid for medically unnecessary and dangerous endovascular procedures performed by a
physician for the medical center’s heart center that caused serious injury to 37 patients. Satilla
entered into an agreement with another company to purchase Satilla, which will result in a new
board of directors, new administrators, and a new compliance program at the medical center.


Personal Care Services
Minnesota – Personal Care Assistant Services. John Alemoh Momoh, owner and operator of Hopecare
Service, Inc. (Hopecare), was sentenced to 2 years of incarceration and ordered to pay $656,876 in
restitution to Medicaid for claims submitted for personal care assistant (PCA) services. Between May
2007 and March 2008, Momoh submitted false claims with respect to the number of PCA service
hours provided to Medicaid beneficiaries. Momoh also submitted false claims to Medicaid for
services that were not rendered, were provided by an unqualified individual, and were not medically
necessary.
Virginia – Services Rendered by Untrained Personal Care Aides. Health Care of Virginia, LLC (HCV), a
home health agency, was ordered to pay $323,420 in restitution for health care fraud. The company
allegedly submitted claims to the Virginia Medicaid program for services rendered by untrained
personal care aides. The investigation indicated that HCV falsified training certificates and patient
assessments. Two other defendants pleaded guilty for their roles in the scheme and have been
sentenced.


Nursing Homes
Tennessee – Enteral (Nutrition) Therapy Goods and Services. Vanguard Healthcare Ancillary Services,
LLC; Vanguard Healthcare, LLC; and Vanguard Healthcare Services, LLC (collectively, Vanguard)
agreed to pay $2 million as a part of a settlement agreement to resolve allegations of false claims and
illegal kickbacks. Between March 1998 and September 2008, Vanguard allegedly submitted claims to
Medicare for enteral (nutrition) therapy goods and services that were also billed to the Tennessee
and Mississippi Medicaid programs. Vanguard allegedly failed to disclose the relationship between
its long-term-care facilities (which billed Tennessee and Mississippi Medicaid for the enteral therapy
goods and services) and Vanguard Healthcare Ancillary Services (which billed Medicare Part B for the
same goods and services). Vanguard also allegedly submitted claims to Medicare for certain free
items, namely pumps used to deliver nutritional products and intravenous poles used in the
administration of enteral therapy that Vanguard had received at no cost from a third-party supplier in
an effort to induce referrals.




                                                Page 24
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                           FY 2012 Funding, Activities, and Results



Clinics
New Jersey – Billing for Services Not Provided. The Center for Lymphatic Disorders, LLC (CLD), was
ordered to pay $3 million in restitution as a result of a guilty plea to third-degree health care claims
fraud by office manager Farah Houtan. Between January 2004 and June 2007, Houtan billed
Medicare and Medicaid for services not provided to patients. CLD staff allegedly submitted claims for
surgical procedures but in fact provided physical therapy services, which have a lower
reimbursement rate.


Medical Equipment and Supplies
Texas – Billing for Items Not Provided. James Reese, Lia St. Junius, Brenda Lopez, Lily Johnson, and
others of The Mobility Store (TMS), a medical equipment and supply company, took part in a scheme
that fraudulently billed braces to Medicare and Medicaid as orthotic devices. As a result, Medicare
reimbursed TMS at a rate many times the actual cost of the braces. Reese, Junius, Lopez, and Johnson
were sentenced to 15 years, 11 years and 3 months, 3 years and 7 months, and 2 years and 9 months
of incarceration, respectively, for their roles in the scheme. Additionally, Johnson was ordered to pay
$4 million in restitution, jointly and severally, and Lopez, Reese, and St. Junius were each ordered to
pay $8.6 million, jointly and severally.
Florida – Unauthorized Oxygen-Therapy-Related Testing and Falsification. Benjamin Bane (B. Bane),
owner and operator of two medical equipment and supply companies that provided oxygen therapy
in central and west Florida, and two managers, Greg Bane (G. Bane) and Tracy Bane (T. Bane), were
sentenced to incarceration and ordered to pay restitution for participating in a scheme to defraud
Medicare and Medicaid. Although medical equipment and supply companies are expressly prohibited
by Medicare regulations from performing the qualifying tests to establish medical necessity for home
oxygen, B. Bane allegedly instructed his employees to perform such tests; falsify test results; and alter
information on office computers, such as the beneficiary’s name and the procedure date. The
qualifying test results were then provided to either one of two pulmonary diagnostics companies to
appear as though they had been performed by an independent diagnostic testing facility in
accordance with Medicare regulations, thus making them appear eligible for reimbursement. B. Bane
was sentenced to 12 years of incarceration and ordered to pay $7 million in restitution, jointly and
severally. G. Bane and T. Bane were sentenced to 3 years and 6 months of incarceration, respectively,
for their roles in the scheme, and both were ordered to pay $7 million in restitution, jointly and
severally.
California – Kickback-Related Solicitation and Sale of Beneficiary Information Used in False Billings of
Medicare and Medi-Cal. Mariya Bagdasaryan, owner of Goldberg Medical Supply, was sentenced to 3
years and 1 month of incarceration and ordered to pay $576,803 in restitution for one count of health
care fraud. Between October 2007 and December 2008, Bagdasaryan defrauded Medicare and Medi-
Cal by paying kickbacks to marketers to solicit beneficiary information with promises of free medical
equipment and supplies. Bagdasaryan then sold the beneficiary information to a Medicare billing
service, which, in turn, sold some of the information to a fraudulent medical equipment and supply
company called True Care Medical Supply (True Care). True Care submitted claims to Medicare
falsely representing that it had supplied medical equipment and supplies to
beneficiaries. Bagdasaryan received the longest possible prison term, partly because of a conviction
in 2002 for the same offense. In January 2011, True Care's owner, Edgar Srapyan, was sentenced to
3 years and 1 month of incarceration and ordered to pay over $330,000 in restitution.



                                                 Page 25
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          FY 2012 Funding, Activities, and Results


Tennessee – Diabetic Testing Supplies. AmMed Direct, LLC (AmMed), agreed to pay $18 million to
resolve allegations that it violated the False Claims Act. From September 2008 to January 2010,
AmMed, a supplier of diabetic testing supplies and other medical equipment and supplies, allegedly
billed Medicare and Tennessee Medicaid for diabetic testing supplies sold to beneficiaries through
telephone cold calls, in violation of the Social Security Act, 1834(a)(17), which prohibits unsolicited
telephone contact by suppliers. AmMed advertised and offered free cookbooks without any mention
of diabetic testing supplies or without stating that AmMed was a medical equipment and supply
company. When beneficiaries called to claim the cookbook, AmMed allegedly sold them diabetic
testing supplies and submitted claims to Medicare and Tennessee Medicaid. The settlement also
resolves AmMed’s alleged failure to refund Medicare and Medicaid for supplies that were returned
to the company. AmMed disclosed the unpaid refunds to the Government during the investigation.


Laboratories
Indiana – Unnecessary Blood Tests and Other Improprieties. Medway Diagnostic Laboratories operator
Munir Chaudhry and Physician Adolph Yaniz were each sentenced after health care fraud convictions.
The Government contended that, between January 2008 and February 2009, Chaudhry worked with
Yaniz to perform unnecessary blood tests on Yaniz’s patients and billed Medicare and Medicaid for
the services. Chaudhry also paid the monthly rent for the medical practice in exchange for Yaniz's
sending all his patients’ specimens to Medway Diagnostic Laboratories for analysis. Yaniz admitted
that he knowingly dispensed hydrocodone and alprazolam to patients who had no medical need for
the medications. Yaniz was sentenced to 5 years of incarceration and ordered to pay restitution of
$71,577. As part of his plea agreement, Yaniz agreed to forfeit his medical license. He further agreed
to a lifetime ban from participating in any Federal or State-funded health care program. Chaudhry
was sentenced to 2 years and 3 months of incarceration and ordered to pay $31,000 in restitution,
jointly and severally.


Managed Care Companies
Florida, Illinois – Multiple Violations Alleged. WellCare Health Plans, Inc., a company that provides
managed health care services, agreed to pay $137.5 million to the Federal Government and nine
States to resolve four lawsuits involving alleged violations of the False Claims Act. The Government
alleged that WellCare falsely retained payments from Florida Medicaid, Florida Healthy Kids, and
Illinois Medicaid for behavioral health services; falsely retained payments from Florida Medicaid for
newborns; submitted falsely inflated performance data for call centers; knowingly permitted Florida
Medicaid to rely on overpriced encounter data for future premium rate setting and other uses;
operated a sham Special Investigative Unit that failed to properly audit WellCare providers; upcoded
risk scores for Medicare plans; and engaged in sales and marketing abuses, including “cherrypicking”
of healthy patients to avoid future costs. Five former WellCare executives, including former chief
executive officer Todd Farha, were indicted in March 2011. In addition to agreeing to the settlement,
WellCare entered into a 5-year CIA with enhanced oversight and reporting obligations.
California – Allegations of Misrepresenting Information Affecting Reimbursements. SCAN Health Plan,
Senior Care Action Network, and Scan Group (collectively, SCAN) agreed to pay $322 million to
resolve allegations that it violated the False Claims Act. SCAN is a Medicare Advantage (i.e., Medicare
Part C) plan, which is focused on providing services to beneficiaries who are dually eligible for
Medicare and Medicaid. The United States alleged that SCAN provided misleading information about



                                                Page 26
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         FY 2012 Funding, Activities, and Results


beneficiaries’ diagnoses, resulting in inflated capitation payments, and improperly retained
overpayments.




                                               Page 27
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012             FY 2012 Funding, Activities, and Results




                               http://oig.hhs.gov




                                             Page 28
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix A – Reports Issued in FY 2012




Appendix A

Medicaid Reports Issued in FY 2012
The majority of reports listed in this appendix are available on the Office of Inspector General (OIG)
Web site at https://oig.hhs.gov. To access the reports, query on the report number shown after each
title. Reports not posted to the Web site may be requested through the Freedom of Information Act
(FOIA). To make a request under FOIA, please use the following
link: https://oig.hhs.gov/foia/submit.asp.



Audit Reports


Medicaid Hospitals
•   Utah Did Not Always Correctly Claim Medicaid Costs for Selected High-Dollar Outpatient Claims
    Audit, A-07-11-04177
•   Review of Costs Claimed for Selected High-Dollar Outpatient Services in the Colorado Medicaid
    Program During the Period January 1, 2007, Through December 31, 2009, A-07-11-04178

•   Missouri Did Not Always Correctly Claim Medicaid Costs for Selected High Dollar Outpatient Claims
    Audit, A-07-11-04180


Medicaid Home, Community, and Nursing Home Care
•   Massachusetts Generally Complied With Federal and State Requirements for Medicaid Payments to
    Wingate Healthcare, A-01-11-00010

•   Massachusetts Medicaid Payments to Alliance Health of Massachusetts, Inc., Did Not Always Comply
    With Federal and State Requirements, A-01-12-00003
•   Massachusetts Medicaid Payments to Diocesan Healthcare Facilities Did Not Always Comply With
    Federal and State Requirements, A-01-12-00004
•   Massachusetts Medicaid Payments to Cedar Hill Health Care Center Did Not Always Comply With
    Federal and State Requirements, A-01-12-00008

•   Massachusetts Medicaid Payments to Redstone Rehabilitation and Nursing Center Did Not Always
    Comply With Federal and State Requirements, A-01-12-00007

•   Massachusetts Medicaid Payments to Newton Health Care Center Did Not Always Comply With
    Federal and State Requirements, A-01-12-00013
•   Massachusetts Medicaid Payments to Calvin Coolidge Nursing and Rehabilitation Center for
    Northampton Did Not Always Comply With Federal and State Requirements, A-01-12-00012

•   Review of Medicaid Personal Care Claims Submitted by Providers in New Jersey, A-02-09-01002



                                                Page 29
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         Appendix A – Reports Issued in FY 2012


•   Review of Medicaid Claims Submitted by Continuing Day Treatment Providers in New York State
    Audit, A-02-09-01023

•   Review of Medicaid Payments for Services Provided Under New Jersey’s Section 1915(c) Community
    Care Waiver by Bancroft NeuroHealth From January 1, 2005, Through December 31, 2007,
    A-02-09-01034
•   New Jersey Did Not Always Claim Federal Medicaid Reimbursement for Personal Care Services Made
    by Bayada Nurses, Inc., in Accordance With Federal and State Requirements, A-02-10-01001

•   Review of Selected Medicaid Home Health Services Claims Made by Jewish Home and Hospital
    Lifecare Community Services -- Manhattan LTHHCP Audit, A-02-10-01002

•   New York Claimed Some Unallowable Costs for Services by New York City Providers Under the
    State’s Developmental Disabilities Waiver Program, A-02-10-01027

•   Review of Medicaid Payments for Services Under New Jersey’s Section 1915(c) Community Care
    Waiver Program From January 1, 2005, Through December 31, 2007, A-02-10-01029

•   Review of Personal Care Services Under Maryland's Medicaid State Plan, A-03-11-00200

•   West Virginia Complied With Certain Federal Requirements for Most of the Personal Care Services
    Claimed for Its Aged and Disabled Waiver Program, A-03-11-00205

•   South Carolina Claimed Some Unallowable Room-and-Board Costs Under the Intellectual and
    Related Disabilities Waiver, A-04-11-04012

•   Review of New Mexico Medicaid Personal Care Services Provided by Ambercare Home Health,
    A-06-09-00062
•   Review of New Mexico Medicaid Personal Care Services Provided by Heritage Home Health Care,
    A-06-09-00063

•   Review of New Mexico Medicaid Personal Care Services Provided by Coordinated Home Health Care,
    A-06-09-00064

•   Review of Louisiana Medicaid Personal Care Services Provided by American Pride Caregivers, LLC,
    A-06-09-00107

•   Review of New Mexico Medicaid Personal Care Services Provided by Clovis Homecare, Inc.,
    A-06-09-00117
•   Missouri Claimed Federal Reimbursement for Unallowable Personal Care Services, A-07-11-03171

•   Federal Survey Requirements Not Always Met for Three California Nursing Homes Participating in
    the Medicare and Medicaid Programs, A-09-11-02019


Medicaid Prescription Drug Claims
•   Review of Drug Costs to Medicaid Pharmacies and Their Relation to Benchmark Prices,
    A-06-11-00002

•   Multi-State Review of the Centers for Medicare & Medicaid Services’ Medicaid Drug Expenditures,
    A-07-10-06003




                                               Page 30
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                         Appendix A – Reports Issued in FY 2012


•   Review of Prescribed Drug Costs in the Colorado Medicaid Family Planning Program, A-07-11-
    01095


Other Medicaid Services
•   Review of Medicaid Payments for School-Based Health Services Made to Manchester, New
    Hampshire, A-01-10-00014
•   Rhode Island Did Not Always Comply With State Requirements on Medicaid Payments for Hospice
    Services, A-01-11-00005

•   Rhode Island Hospice General Inpatient Claims and Payments Did Not Always Meet Federal and
    State Requirements, A-01-12-00002

•   Review of Medicaid Payments for Nonemergency Medical Transportation Services Claims Submitted
    by Providers in New York City, A-02-08-01017
•   Review of Medicaid Payments for Nonemergency Medical Transportation Services Claims Submitted
    by Providers in New York State, A-02-09-01024

•   Review of Medicaid Claims for Adult Mental Health Rehabilitation Services Made by Community
    Residence Providers In New Jersey, A-02-09-01028

•   Review of Medicaid Payments to Excluded or Terminated Durable Medical Equipment Suppliers in
    Florida During Calendar Year 2009, A-04-11-07020

•   Ohio Medicaid Costs for Home Blood-Glucose Test Strips Could Be Reduced by Approximately
    50 Percent, A-05-11-00098

•   Indiana Reduced Medicaid Costs for Home Blood-Glucose Test Strips by Approximately 50 Percent
    Using Manufacturer Rebates, A-05-12-00011

•   Review of North Dakota's Medicaid Fee Schedule Rates for Home Blood Glucose Test Strips,
    A-05-12-00019
•   Review of Costs for Inpatient Services in the Colorado Medicaid Family Planning Program,
    A-07-11-01097
•   Review of Colorado Direct Medical Service and Specialized Transportation Costs for the Medicaid
    School Health Services Program for State Fiscal Year 2008, A-07-11-04185

•   Oregon Improperly Claimed Federal Reimbursement for Medicaid Family Planning Services
    Provided Under the Family Planning Expansion Project, A-09-11-02010

•   Hawaii Claimed Unallowable Medicaid Reimbursement for Nonemergency Medical Transportation
    Services Furnished by Taxi Providers, A-09-11-02047


Medicaid Administration
•   Maine Did Not Always Make Correct Medicaid Claim Adjustments, A-01-12-00001

•   Review of Medicaid Administrative Costs Claimed by New Jersey for State Fiscal Year 2007,
    A-02-07-01050




                                               Page 31
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix A – Reports Issued in FY 2012


•   Review of Medicaid Administrative Costs Claimed by New Jersey for State Fiscal Years 2005 and
    2006, A-02-08-01009

•   New Jersey Generally Reported Medicaid Overpayments in Accordance With Federal Regulations,
    A-02-10-01009

•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    the U.S. Virgin Islands for the Quarter Ended September 30, 2009, A-02-11-01004
•   Medicaid Rates for New York State Developmental Centers May Be Excessive, A-02-11-01029

•   Review of Virginia’s Buy-In of Medicare Part B Premiums for Medicaid Beneficiaries From January
    2008 Through December 2009, A-03-10-00201
•   Pennsylvania Did Not Refund the Full Federal Share of Recouped Excess Capitation Payments From
    the Medicaid Behavioral HealthChoices Program, A-03-10-00204

•   Delaware Did Not Comply With Federal Requirements To Report All Medicaid Overpayment
    Collections, A-03-11-00203

•   Pennsylvania Claimed Medicaid Administrative Costs for Provider Training Under Its Restraint
    Reduction Initiative, A-03-11-00209
•   Maryland Claimed Medicaid Administrative Costs for Unallowable Remedial and Training Services,
    A-03-12-00204

•   North Carolina Incorrectly Claimed Enhanced Federal Reimbursement for Some Medicaid Services
    That Were Not Family Planning, A-04-10-01089

•   North Carolina Incorrectly Claimed Enhanced Federal Reimbursement for Some Medicaid Waiver
    Services That Were Not Family Planning, A-04-10-01091

•   Wyoming Incorrectly Claimed Enhanced Reimbursement for Medicaid Family Planning Sterilization
    Costs, A-07-11-01100

•   Alabama Improperly Claimed Federal Funds for CHIP Enrollees Who Had Medicaid or Other Health
    Insurance Coverage, A-04-11-08008

•   Review of Michigan Medicaid Payments to Terminated Providers for Posttermination Services,
    A-05-10-00082

•   Illinois Did Not Report All Medicaid Overpayments In Accordance With Federal Requirements,
    A-05-11-00044
•   Michigan Did Not Perform Eligibility Redeterminations at Least Every 12 months for Wayne County
    Medicaid Beneficiaries, A-05-11-00045

•   Review of Illinois’ Reporting of Fund Recoveries in the Appeals Process on the Form CMS-64,
    A-05-11-00052
•   Review of Arkansas’ Reporting Fund Recoveries for Federal and State Medicaid Programs on the
    CMS-64 Report for State Fiscal Year 2009, A-06-10-00051
•   Review of Oklahoma Collections for the Medical Assistance Program for Calendar Years 2004
    Through 2009, A-06-10-00057




                                                Page 32
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix A – Reports Issued in FY 2012


•   Texas Did Not Report Excess Contractor Profits in Accordance With Federal Regulations,
    A-06-10-00062

•   States Inappropriately Retained Federal Funds for Medicaid Contractors for the First Recovery Act
    Quarter, A-06-11-00064

•   Review of Kansas Medicaid Payments for the School District Administrative Claiming Program
    During the Period April 1, 2006, Through March 31, 2009, A-07-10-04168
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Colorado, A-07-11-02758
•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Nebraska, A-07-11-02759

•   Review of Nebraska’s Medicaid Payments for Dual Eligible Individuals’ Medicare Part A Deductibles
    and Coinsurance, A-07-11-03161
•   Nebraska Did Not Properly Pay Some Medicare Part B Deductibles and Coinsurance, A-07-11-
    03168

•   Montana Did Not Properly Pay Medicare Part B Deductibles and Coinsurance, A-07-11-03172

•   Review of ARRA Medicaid Prompt Requirements in Nebraska, A-07-11-06019

•   Colorado Did Not Always Identify or Prevent Excluded Providers From Participating in the Medicaid
    Program, A-07-11-06026

•   Not All of Colorado’s Claimed State CHIP Expenditures Were Allowable, A-07-12-02780

•   Most of Missouri’s Medicaid Expenditures for the Quarter Ended March 31, 2009, Were Adequately
    Supported and Allowable, A-07-12-03174

•   Review of the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program in
    Washington State, A-09-10-02013
•   Arizona Improperly Claimed Federal Reimbursement for Medicare Part B Premiums Paid on Behalf
    of Medicaid Beneficiaries, A-09-11-02009
•   Nevada Improperly Claimed Federal Reimbursement for Medicare Part B Premiums Paid on Behalf
    of Medicaid Beneficiaries, A-09-11-02024

•   Oregon's Internal Controls Were Substantially Adequate To Prevent Medicaid Payments to Excluded
    Providers, A-09-11-02042
•   Contract Provisions for the Hawaii QUEST Expanded Access Risk Share Program Not Implemented,
    A-09-12-02006


Medicaid Information Technology
•   Information Technology General Controls Audit of the State of Ohio of Client Registry Information
    System - Enhanced (CRIS-E), A-05-10-00064
•   Information Technology General Controls Audit of the State of Minnesota MMIS, A-05-11-00014

•   Audit of OHCA's IT Controls, A-06-10-00081



                                                 Page 33
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix A – Reports Issued in FY 2012


•   Audit of Arkansas IT Controls Over the Medicaid Program, A-06-11-00005

•   Audit of Louisiana IT Controls Over the Medicaid Program, A-06-11-00020

•   Audit of IT Controls for USB Devices at Children's Medical Center of Dallas, A-06-12-00016

•   Audit of IT Controls for USB Devices at Presbyterian Hospital, A-06-12-00018

•   Audit of IT Controls for USB Devices at Baptist Health Medical Center, A-06-12-00019

•   Review of General Controls for Kansas Medicaid Eligibility Determinations at Policy Studies
    Incorporated, A-07-10-00346
•   Review of CalOptima's Information System General Controls Over Its Medi-Cal Claims Processing
    System, A-09-11-03008




                                                Page 34
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix A – Reports Issued in FY 2012



Evaluation and Inspection Reports

•   Medicaid Managed Care: Fraud and Abuse Concerns Remain Despite Safeguards, OEI-01-09-00550

•   Oversight of Quality of Care in Medicaid Home and Community-based Services Waiver Programs
    OEI-02-08-00170
•   Medicaid New York State Medicaid Fraud Control Unit: 2011 Onsite Review, OEI-02-11-00440

•   States Collection of Medicaid Rebates for Drugs Paid Through Medicaid Managed Care
    Organizations, OEI-03-11-00480

•   Vaccines for Children Program: Vulnerabilities in Vaccine Management, OEI-04-10-00430

•   Early Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200

•   Early Assessment of Audit Medicaid Integrity Contractors, OEI-05-10-00210

•   Status of 244 Provider Audits Identified Using Review Medicaid Integrity Contractor Analysis,
    OEI-05-10-00201
•   Excluded Providers in Medicaid Managed Care Entities, OEI-07-09-00630

•   Medicaid Payments for Therapy Services in Excess of State Limits, OEI-07-10-00370

•   Missouri State Medicaid Fraud Control Unit: 2011 Onsite Review, OEI-07-11-00750

•   Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review, OEI-07-12-00200

•   Excluded Individuals Employed by Providers Enrolled in Medicaid Managed Care Entities,
    OEI-07-09-00632

•   The Medicare-Medicaid (Medi-Medi) Data Match Program, OEI-09-08-00370




                                                Page 35
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012             Appendix A – Reports Issued in FY 2012




                               http://oig.hhs.gov




                                             Page 36
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                  Appendix B—OIG Recommendations




Appendix B

OIG Open Recommendations
Carried Forward From Prior Fiscal Years
The Medicaid-related recommendations selected for this appendix were described in the
December 2 012 Edition of the Office of Inspector General’s (OIG) Compendium of Unimplemented
Recommendations. The recommendations, which are addressed to the Centers for Medicare
& Medicaid Services (CMS), represent significant opportunities to improve program management and
save tax dollars through legislative, regulatory, or administrative actions.
The recommendations below are aligned with four of the key management and performance
challenges that OIG identified for the Department of Health and Human Services (HHS) at the close of
fiscal year (FY) 2012.

•   Identifying and Reducing Improper Payments

•   Preventing and Detecting Fraud

•   Ensuring Patient Safety and Quality of Care

•   Avoiding Waste and Promoting Value
In many instances, CMS has made significant progress with regard to the prior-period items. More
detail on the prior-period items in this appendix is provided in the Medicaid section of OIG’s
December 2012 Compendium, available on our Web site at https://oig.hhs.gov.



Identify and Reduce Improper Payments
    Improper Payments     Home Health—Duplicate Medicaid and Medicare Home Health Payments – Medical
                          Supplies and Therapeutic Services
     OEI-07-06-00640      Continuing to monitor—We recommend that CMS ensure that Medicaid does not
                          pay home health providers for nonroutine medical supplies and therapeutic
                          services paid by Medicare. When Medicaid and Medicare cover particular supplies
                          and services, Medicaid is the payer of last resort and Medicare should pay first for
                          services provided to individuals who meet dual-eligibility requirements. Annual
                          savings are probable but not estimated. More detail is available in the Medicaid
                          section of OIG’s December 2012 Compendium, p. 124 (Home Health—Prevent
                          Duplicate Medicaid and Medicare Payments).


    Improper Payments     Personal Care Services—Payments Made in Error for Personal Care Services During
                          Institutional Stays
     OEI-07-06-00620      Continuing to monitor—We recommend that CMS enforce Federal Medicaid
                          payment policies that prohibit Medicaid reimbursement for personal care services
                          (PCS) provided over a range of dates if the range includes dates on which the
                          beneficiary was institutionalized and work with States to reduce erroneous
                          Medicaid payments for PCS provided during institutional stays. Annual savings are




                                                    Page 37
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                   Appendix B—OIG Recommendations


                           probable but not estimated. More detail is available in the Medicaid section of OIG’s
                           December 2012 Compendium, p. 125 (Personal Care Services—Enforce Policies
                           Prohibiting Payments for Personal Care Services for Institutionalized Beneficiaries).


    Improper Payments      Personal Care Services—Inappropriate Claims for Medicaid Personal Care Services
     OEI-07-08-00430       Continuing to monitor—We recommend that CMS work with States to ensure that
                           Medicaid claims for PCS provided by attendants with undocumented qualifications
             Also See:
                           are not paid and take action regarding the inappropriately paid claims identified in
     OEI-07-05-00250
                           our review. Annual savings are probable but not estimated. More detail is available
     and OIG 12-12-01
                           in the Medicaid section of OIG’s December 2012 Compendium, p. 127 (Personal Care
                           Services—Ensure that Medicaid Claims Provided by Attendants With
                           Undocumented Qualifications Are Not Paid.)


    Improper Payments      Medicaid Managed Care Encounter Data – Collection and Use
     OEI-07-06-00540       Continuing to monitor—We recommend that CMS enforce Federal requirements
                 and       that States include managed care encounter data in Medicaid Statistical Information
     OEI-04-07-00240       System (MSIS) submissions. The Affordable Care Act, § 6402(c), authorizes the
                           Secretary to withhold Federal matching payments for States that fail to report
                           enrollee encounter data in the MSIS. Encounter data are the primary records of
                           Medicaid services provided to beneficiaries enrolled in capitated Medicaid
                           managed care. Annual savings are probable but not estimated. More detail is
                           available in the Medicaid section of OIG’s December 2012 Compendium, p. 131
                           (Managed Care—Enforce Federal Requirements for Submitting Medicaid Managed
                           Care Encounter Data).




Prevent and Detect Medicaid Fraud
Ensure Patient Safety and Quality of Care

         Quality of Care   Children— Most Medicaid Children in Nine States Are Not Receiving All Required
                           Preventive Screening Services
      OEI-05-08-00520      Continuing to monitor—We recommend that CMS require States to report
              See also:    beneficiaries’ vision and hearing screenings; collaborate with States and providers to
      OEI-02-00-00362      develop effective strategies to encourage beneficiary participation in Medicaid’s
                           Early and Periodic Screening, Diagnostic, and Treatment (EPSDT) screenings;
                           collaborate with States and providers to develop education and incentives for
                           providers to encourage complete medical screenings; and identify and disseminate
                           promising State practices for increasing children’s participation in EPSDT screenings
                           and providers’ delivery of complete medical screenings. More detail is available in
                           the Medicaid section of OIG’s December 2012 Compendium, p. 129 (Improve
                           Medicaid Children’s Utilization of Preventive Screening Services).




                                                     Page 38
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                 Appendix B—OIG Recommendations



Avoid Waste and Promote Value
     Wasteful Spending    Prescription Drugs—Replacing Average Wholesale Price: Medicaid Drug Payment
                          Policy
     OEI-03-11-00060      Continuing to monitor—We recommend that CMS develop a national benchmark
                 and      that accurately reflects actual acquisition costs; encourage States to consider it
      A-06-11-00002       when determining Medicaid reimbursement for prescription drugs; and enable
                          States to develop different reimbursement benchmarks for single-source drugs,
                          brand-name multiple-source drugs, and generic multiple-source drugs. Annual
                          savings are probable but not estimated. More detail is available in the Medicaid
                          section of OIG’s December 2012 Compendium, p. 98 (Prescription Drugs—Develop
                          National Pharmacy Acquisition Cost Data as a Benchmark for Reimbursing
                          Prescription Drugs).


     Wasteful Spending    Prescription Drugs—FDA’s Approval Status of Drugs Paid for by Medicaid
     OEI-03-08-00500      Continuing to monitor—We recommend that CMS work with the Food and Drug
                 and      Administration (FDA) to identify any potentially problematic Medicaid payments
     OEI-03-08-00300      for drugs that have not been approved by FDA. We also recommend that FDA work
                          with CMS and Congress to compel manufacturers to list all approved products with
                          FDA before the products become eligible for Medicaid payment. Annual savings are
                          probable. We estimated $20 million quarterly on the basis of an analysis of 2007
                          fourth-quarter Medicaid expenditures. More detail is available in the Medicaid
                          section of OIG’s December 2012 Compendium, p. 100 (Prescription Drugs—Require
                          Manufacturers To List All Approved Products With the Food and Drug
                          Administration as a Requirement of Medicaid Eligibility).


     Wasteful Spending    Prescription Drugs—Determining Average Manufacturer Prices for Prescription Drugs
                          Under the Deficit Reduction Act of 2005
        A-06-06-00063     Continuing to monitor—We recommend that CMS clarify specified terms and the
                          treatment of certain aspects of determining average manufacturer prices (AMP)
                          that we identified, address the various industry group concerns about AMP that we
              See also:
                          reported, and encourage States to analyze the relationship between AMP and
      Advisory Bulletin
                          pharmacy acquisition costs to ensure that Medicaid appropriately reimburses
                          pharmacies. Annual savings are probable but not estimated. More detail is
                          available in the Medicaid section of OIG’s December 2012 Compendium, p. 102
                          (Prescription Drugs—Clarify and Improve Program Guidance to Drug
                          Manufacturers on Average Manufacturer Price Issues).


     Wasteful Spending    Prescription Drugs—Need To Establish Connection Between the Calculation of
                          Medicaid Drug Rebates and Reimbursement for Medicaid Drugs
        A-06-97-00052     Continuing to monitor—We recommend that CMS seek legislation that would
              See also:   require Medicaid drug rebates and reimbursements to be developed using the same
        A-06-06-00063     basis or review viable alternatives to the current program. Annual savings probable
                          but not estimated. More detail is available in the Medicaid section of OIG’s
                          December 2012 Compendium, p. 104 (Prescription Drugs—Establish a Connection
                          Between the Calculations of Medicaid Drug Reimbursements and Rebates).




                                                   Page 39
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                  Appendix B—OIG Recommendations


     Wasteful Spending    Prescription Drug Rebates—States’ Collection of Medicaid Rebates for
                          Physician-Administered Drugs
     OEI-03-09-00410      Continuing to monitor—We recommend that CMS ensure that all States are
             See also:    accurately identifying and collecting rebates owed by manufacturers for these
      A-06-10-00011       drugs, work with States to develop guidance for implementing system edits that
      A-06-03-00048       increase the efficiency of physician-administered drug claim reviews, work with
     OEI-03-02-00660      States to administer guidance to providers and Medicare contractors about the
                          physician-administered drug rebate requirements, ensure that the crosswalk file (a
                          CMS data file that links two types of commonly used drug codes) is complete and
                          accurate and identifies rebateable physician-administered drugs, and take action
                          against States that do not meet statutory requirements to collect rebates on
                          physician-administered drugs. Annual savings are probable but not estimated.
                          More detail is available in the Medicaid section of OIG’s December
                          2012 Compendium, p. 105 (Prescription Drugs—Ensure That States Are Accurately
                          Identifying and Collecting Rebates on Physician-Administered Drugs).


     Wasteful Spending    Prescription Drug Rebates—Review of Generic Drug Price Increases
      A-06-07-00042       Continuing to monitor—We recommend that CMS seek legislative authority to
             See also:    extend the additional rebate provisions for brand-name drugs to generic drugs.
     OEI-03-10-00320      Annual savings probable but not estimated. An August 2011 OIG report estimated
                          that rebates reduced Medicaid's expenditures for selected generic drugs by only
                          3 percent in 2009 ($13.5 million out of $449 million) compared to 45 percent for
                          selected brand-name drugs. More detail is available in the Medicaid section of OIG’s
                          December 2012 Compendium, p. 107 (Prescription Drug Rebates—Extend the
                          Additional Rebate Payment Provisions for Brand-Name Drugs to Generic Drugs).


     Wasteful Spending    340B Drugs—State Medicaid Policies and Oversight Activities Related to
                          340B-Purchased Drugs
     OEI-05-09-00321      Continuing to monitor—We recommend that CMS inform States about tools they
             See also:    can use to identify claims for 340B-purchased drugs and that the Health Resources
       OIG Testimony      and Services Administration share 340B ceiling prices with States. Annual savings
                          probable but not estimated. More detail is available in the Medicaid section of OIG’s
                          December 2012 Compendium, p. 109 (Prescription Drugs—Improve the Policies
                          and Information Available for State Medicaid Agencies To Oversee Reimbursements
                          for 340B-Purchased Drugs).


     Wasteful Spending    Payments to Public Providers—Review of Medicaid Enhanced Payments to Local
                          Public Providers and the Use of Intergovernmental Transfers
       A-03-00-00216      Continuing to monitor—We recommend that CMS issue definitive guidance for
             See Also:    calculating enhanced payment limits, which should include using facility-specific
       A-02-11-01029      limits that are based on actual cost report data (with the effect of limiting enhanced
    and OIG Testimony     payments to cost) and require that returns of Medicaid payments by a county or
     in 2012 and 2005     local government to the State be declared refunds of those payments and thus be
                          used to offset the Federal share generated by the original payments. Annual savings
                          probable. A January 2007 proposed rule that effectively addressed our concerns
                          was estimated to result in $120 million in savings during the first year and
                          $3.87 billion in savings over 5 years; however the final rule was vacated and
                          withdrawn. (75 Fed. Reg. 73972, November 30, 2010.) More detail is available in
                          the Medicaid section of OIG’s December 2012 Compendium, p. 111 (Payments to




                                                    Page 40
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                 Appendix B—OIG Recommendations


                          Public Providers—Limit Medicaid Payments to Cost and Require That Payments
                          Returned by Public Providers Be Used To Offset the Federal Share).


     Wasteful Spending    Uncollected Refunds— Quarterly Credit Balance Reporting Requirements for
                          Medicaid
        A-05-93-00107     Continuing to monitor—We recommend that CMS establish a national Medicaid
                  and     credit balance reporting mechanism similar to that used for Medicare Part A and
        A-04-92-01023     require its regional offices to actively monitor the reporting mechanism that is
                          established. Annual savings are probable but not estimated. More detail is
                          available in the Medicaid section of OIG’s December 2012 Compendium, p. 114
                          (Uncollected Refunds—Establish a National Medicaid Credit Balance Reporting
                          Mechanism To Monitor Refundable Amounts in Providers’ Patient Accounts).


     Wasteful Spending    Third-Party Liability—Eight-State Review of the Ability of Noncustodial Parents To
                          Contribute Toward the Medical Costs of Title IV-D Children That Were Paid Under the
                          Medicaid Program
        A-01-03-02501     Continuing to monitor—We recommend that CMS clarify third-party liability
                  and     regulations to help State Medicaid agencies coordinate with States’ Title IV-D child
        A-01-03-02502     support enforcement programs to collect Medicaid costs from noncustodial parents
                          with the ability to contribute medical support; seek legislation that would allow
                          States to accumulate medical support payments to offset Medicaid fee-for-service
                          (FFS) costs for a reasonable period; determine whether more Federal funds are
                          needed to help States interface their databases; implement a process to collect
                          program costs from noncustodial parents; and as appropriate, provide funds for
                          this purpose. Annual savings are probable but not estimated. On the basis of a pair
                          of eight-State reviews, we estimated savings at $99 million for Medicaid and
                          $14 million for the Children’s Health Insurance Program for the selected States over
                          2 years. More detail is available in the Medicaid section of OIG’s December
                          2012 Compendium, p. 116 (Third-Party Liability—Ensure That States Collect From
                          Noncustodial Parents With the Ability To Contribute Toward Their Children’s
                          Medicaid or Children’s Health Insurance Program (CHIP) Costs).


     Wasteful Spending    Hospitals— Medicaid Hospital Outlier Payment Followup for Fiscal Years 2004
                          Through 2006
        A-07-10-04160     Continuing to monitor—We recommend that CMS encourage all States that make
                          Medicaid outlier payments to use the most recent cost-to-charge ratios to calculate
                          those payments, reconcile them upon cost report settlement or use an alternative
                          method to ensure that outlier payments are more closely aligned with actual costs,
                          and amend their State plans accordingly. Annual savings are probable but not
                          estimated. More detail is available in the Medicaid section of OIG’s December
                          2012 Compendium, p. 118 (Hospital Payments—Encourage States To Update
                          Hospital Outlier Payment Methodologies).


     Wasteful Spending    Adult Day Health Care—Medicaid Services Provided in an Adult Day Health Setting
     OEI-09-07-00500      Continuing to monitor—We recommend that CMS specify what minimum services
                          are required to qualify for Medicaid reimbursement of adult day health services,
                          direct States to enforce supervision requirements for staff who provide therapy
                          services in Medicaid adult day health centers, and take appropriate action with
                          regard to the adult day health centers that did not respond to repeated data



                                                    Page 41
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                                 Appendix B—OIG Recommendations


                          requests. Annual savings probable but not estimated. More detail is available in the
                          Medicaid section of OIG’s December 2012 Compendium, p. 119 (Adult Day Health
                          Settings—Ensure That Services Provided Qualify for Medicaid Reimbursement).




                                                   Page 42
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        Appendix C—FY 2013 Medicaid Work Plan




Appendix C

Fiscal Year 2013 Medicaid Work Plan
The audit and evaluation projects below were drawn from the Medicaid section of the Office of
Inspector General (OIG) Work Plan for Fiscal Year (FY) 2013. In most instances, additional
information, such as definitions of key terms and legal citations, is provided in the source Work Plan.
For brevity, the summaries below include only the stated objectives.



Prescription Drug Reviews
Patient Safety and Quality of Care—Claims for and Use of Atypical Antipsychotic Drugs Prescribed to
Children in Medicaid
We will determine the extent to which children ages 18 and younger had Medicaid claims for atypical
antipsychotic drugs during the selected timeframe. On the basis of medical record reviews, we will
also determine the extent to which the atypical antipsychotic drug claims were for off-label uses and
for indications not listed in one or more of the approved drug compendia. (OEI; 07-12-00320;
expected issue date: FY 2014; work in progress)

Drug Pricing—Calculation of Average Manufacturer Prices
We will review selected drug manufacturers to evaluate methodologies they use to calculate the
average manufacturer price (AMP) and the best price for the Medicaid drug rebate program and for
drug reimbursement. We will also determine whether the methodologies are consistent with
statutes, regulations, and manufacturers’ rebate agreements and the Centers for Medicare & Medicaid
Services (CMS) Drug Manufacturer Release(s). (OAS; W-00-11-31202; various reviews; expected
issue date: FY 2013; work in progress)

Drug Pricing—State Maximum Allowable Cost Programs
We will review State Maximum Allowable Cost (State MAC) programs to determine how State
MAC lists are developed, how State MAC prices are set, and how State MAC prices compare to the
Federal Upper Limit (FUL) amounts. This review will compare State MAC programs to determine
which ones are most successful in reducing Medicaid expenditures. (OEI; 03-11-00640; expected
issue date: FY 2013; work in progress)

Drug Pricing—Manufacturer Compliance With Average Manufacturer Price Reporting Requirements
We will review manufacturer compliance with AMP reporting requirements and determine what
percentage of manufacturers complied with the requirements in 2011. We will determine whether
stepped-up enforcement actions by CMS and OIG are reflected in increased compliance by
manufacturers. (OEI; 00-00-00000; expected issue date: FY 2014; new start)

Drug Pricing—Drugs Purchased Under Retail Discount Generic Programs
We will review Medicaid claims for generic drugs to determine the extent to which large chain
pharmacies are billing Medicaid the usual and customary charges for drugs provided under their
retail discount generic programs. We will also examine CMS’s policies and procedures for ensuring
that Medicaid is billed properly under retail discount generic programs. (OEI; 00-00-00000;
expected issue date: FY 2014; new start)




                                                Page 43
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                       Appendix C—FY 2013 Medicaid Work Plan


Manufacturer Rebates—State's Collection of Rebates on Physician-Administered Drugs
We will determine whether States have established adequate accountability and internal controls for
collecting Medicaid rebates on physician-administered drugs. We will assess States’ processes for
collecting national drug code information on claims for physician-administered drugs and
subsequent processes for billing and collecting rebates. (OAS; W-00-12-31400; various reviews;
expected issue date: FY 2013; work in progress)

Manufacturer Rebates—States’ Collection of Supplemental Rebates
We will determine whether increases in the basic Federal minimum rebate amount required by the
Patient Protection and Affordable Care Act of 2010 (Affordable Care Act) are being collected from
drug manufacturers by States. We will also determine the dollar amount of supplemental drug
rebates that States negotiated and collected between 2008 and 2011. (OEI; 03-12-00520; expected
issue date: FY 2013; work in progress)

Manufacturer Rebates—Impact of the Deficit Reduction Act of 2005 on Rebates for Authorized Generic
Drugs
We will review drug-pricing and rebate data that drug manufacturers report to State Medicaid
agencies to determine the extent to which manufacturers are reporting pricing data and paying
rebates for authorized generic drugs. We will also determine to what extent Medicaid rebates have
changed since the implementation of certain provisions and whether the number of new authorized
generics changed after implementation. (Deficit Reduction Act of 2005, § 6001.) (OEI; 00-00-00000;
expected issue date: FY 2014; new start)

Manufacturer Rebates—Zero-Dollar Unit Rebate Amounts
We will determine whether States have procedures to track and collect drug rebates for drugs with
zero-dollar unit rebate amounts (URA). We will determine each State’s rebate collection rate for
high-dollar drugs with zero-dollar URAs in the fourth quarter of 2010 and the first quarter of 2011.
(OEI; 03-11-00470; expected issue date: FY 2013; work in progress)

Manufacturer Rebates—New Formulations of Existing Drugs
We will review drug manufacturers’ compliance with Medicaid drug rebate requirements for drugs
that are new formulations of existing drugs. We will also determine whether manufacturers have
correctly identified all their drugs that are subject to a new provision in law. A recent change
increases the additional rebate for drugs that are new formulations of existing drugs if certain
conditions are met. (OAS; W-00-13-31451; various reviews; expected issue date: FY 2013; new start;
Affordable Care Act)

Manufacturer Rebates—States’ Efforts and Experiences With Resolving Rebate Disputes
We will review the causes of and resolutions to Medicaid rebate disputes and the methods States use
to resolve them. (OEI; 05-11-00580; expected issue date: FY 2013; work in progress)

Manufacturer Rebates—Federal Share of Rebates
We will review States’ reporting of the Federal share of Medicaid rebate collections. We will
determine whether States are correctly identifying and reporting the increases in rebate collections.
(OAS; W-00-13-31450; various reviews; expected issue date: FY 2013; new start; Affordable Care
Act)




                                               Page 44
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        Appendix C—FY 2013 Medicaid Work Plan



Home, Community, and Personal Care Services
Home Health Services—Duplicate Payments by Medicare and Medicaid
We will review Medicaid payments by States for Medicare-covered home health services to determine
the extent to which both Medicare and Medicaid have paid for the same services. (Social Security Act,
§ 1902(a)(25).) (OAS; W-00-13-31305; various reviews; expected issue date: FY 2014; new start)

Home Health Services—Screenings of Health Care Workers
We will review health-screening records of Medicaid home health care workers to determine
whether the workers were screened in accordance with Federal and State requirements.
(OAS; W-00-11-31387; W-00-12-31387; various reviews; expected issue date: FY 2013; work in
progress)

Home Health Services—Provider Compliance and Beneficiary Eligibility
We will review home health agency (HHA) claims to determine whether providers have met
applicable criteria to provide services and whether beneficiaries have met eligibility criteria.
(OAS; W-00-10-31304; W-00-11-31304; W-00-12-31304; various reviews; expected issue date:
FY 2013; work in progress)

Home Health Services—Homebound Requirements
We will review CMS policies and practices for reviewing the sections of Medicaid State plans related
to eligibility for home health services and describe how CMS intends to enforce compliance with
appropriate eligibility requirements for home health services. We will also identify the number of
States that violate Federal regulations by inappropriately restricting eligibility for home health
services to homebound recipients. (OEI; 00-00-00000; expected issue date: FY 2014; new start)

Medicaid Waivers—Quality of Care Provided Through Waiver Programs
We will determine the extent to which Medicaid home and community-based services (HCBS)
beneficiaries have service plans, receive the services in their plans, and receive services from
qualified providers. (OEI; 02-11-00700; expected issue date: FY 2013; work in progress)

Medicaid Waivers—Supported Employment Services
We will review Medicaid payments by States for supported employment services to determine
whether such services were rendered in accordance with Federal and State requirements.
(OAS; W-00-12-31463; various reviews; expected issue date: FY 2013; work in progress)

Medicaid Waivers—Adult Day Health Care Services
We will review Medicaid payments by States for adult day care services to determine whether the
payments complied with certain Federal and State requirements. (OAS; W-00-12-31386; various
reviews; expected issue date: FY 2013; work in progress)

Medicaid Waivers—Unallowable Room -and-Board Costs
We will determine whether selected State Medicaid agencies claimed Federal reimbursement for
unallowable room-and-board costs for HCBS-provided services pursuant to the Social Security Act,
§ 1915(c). We will determine whether payments made by States for HCBS included the cost of room
and board and the method used to make that calculation. (OAS; W-00-13-31465; various reviews;
expected issue date: FY 2014; new start)




                                                Page 45
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                          Appendix C—FY 2013 Medicaid Work Plan


School-Based Services—Students With Special Needs
We will review Medicaid payments by States for school-based services to determine whether the
costs claimed for such services are reasonable and are properly allocated. (OAS; W‐00‐11‐31391;
W-00-12-31391; various reviews; expected issue date: FY 2013; work in progress)

Community Residence Rehabilitation Services
We will review Medicaid payments for beneficiaries who reside in community residences for
people who have mental illnesses to determine whether States improperly claimed Federal financial
participation (FFP). (OAS; W-00-10-31087; W-00-11-31087; various reviews; expected issue date:
FY 2013; work in progress)

Continuing Day Treatment Mental Health Services
We will review Medicaid payments to continuing day treatment (CDT) providers in one State to
determine whether Medicaid payments by the State to CDT providers in that State are adequately
supported. (OAS; W-00-11-31128; W-00-12-31128; various reviews; expected issue date: FY 2013;
work in progress)

Personal Care Services—Compliance With Payment Requirements
We will review Medicaid payments by States for personal care services to determine whether States
have appropriately claimed FFP. (OAS; W-00-10-31035; W-00-11-31035; W-00-12-31035; various
reviews; expected issue date: FY 2013; work in progress)



Other Medicaid Services, Equipment, and Supplies
Nursing Facility Services—Communicable Disease Care
We will review claims by nursing facilities for communicable disease care to determine whether they
complied with Federal and State requirements. We will also examine patient safety consequences
associated with nursing homes’ failure to comply with related communicable disease care
requirements. (OAS; W-00-13-31466; various reviews; expected issue date: FY 2014; new start)

Dental Services for Children—Inappropriate Billing
We will review Medicaid payments by States for dental services to determine whether States have
properly claimed Federal reimbursement. (OAS; W-00-10-31135; W-00-11-31135; W‐00‐12‐31135;
various reviews; expected issue date: FY 2013; work in progress)

Dental Services for Children—Billing Patterns in Five States
We will review billing patterns of pediatric dentists and their associated clinics in five selected States.
Medicaid covers comprehensive dental care for approximately 30 million low-income children
through the Early and Periodic Screening, Diagnostic, and Treatment (EPSDT) benefit.
(OEI; 02-12-00330; expected issue date: FY 2014; work in progress)

Hospice Services—Compliance With Reimbursement Requirements
We will determine whether Medicaid payments by States for hospice services complied with Federal
reimbursement requirements. (OAS; W-00-11-31385; W-00-12-31385; various reviews; expected
issue date: FY 2013; work in progress)

Family Planning Services—Claims for Enhanced Federal Funding
We will review family planning services in several States to determine whether States improperly
claimed enhanced Federal funding for such services and the resulting financial impact on Medicaid.
(OAS; W-00-10-31078; W-00-11-31078; W-00-12-31078; various reviews; expected issue date:



                                                 Page 46
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                      Appendix C—FY 2013 Medicaid Work Plan


FY 2013;
work in progress)

Transportation Services—Compliance With Federal and State Requirements
We will review Medicaid payments by States to providers for transportation services to determine
the appropriateness of payments for such services. (OAS; W-00-11-31121; W-00-12-31121; various
reviews; expected issue date: FY 2013; work in progress)

Health-Care-Acquired Conditions—Prohibition on Federal Reimbursements
We will determine whether selected States made Medicaid payments for health-care-acquired
conditions and provider-preventable conditions and quantify the amount of Medicaid payments for
such conditions. (OAS; W-00-13-31452; various reviews; expected issue date: FY 2013; new start;
Affordable Care Act)

Medical Equipment and Supplies—Potential Savings From the Competitive Bidding Program
We will determine cost savings for Medicare and Medicaid that could result from expanded use of
competitive bidding for medical equipment and supplies. (OEI; 06-12-00470; 00-00-0000; expected
issue date: FY 2014; work in progress)

Medical Equipment and Supplies—Opportunities To Reduce Medicaid Payment Rates for Selected Items
We will determine whether opportunities exist for lowering Medicaid payments for selected items of
medical equipment and supplies. We will also determine the amount of Medicaid savings that could
be achieved for selected items through the use of rebates, competitive bidding, or other means.
(OAS; W-00-12-31390; various reviews; expected issue date: FY 2013; new start)

Medical Equipment and Supplies—Opportunities To Reduce Medicaid Payment Rates for
Blood-Glucose Test Strips
We will determine whether opportunities exist for lowering payments for home blood-glucose test
strips provided under Medicaid. We will also review rebates that some States collected on test strips
to determine whether the States properly reimbursed the Federal share of the rebates.
(OAS; W-00-12-31390; W-00-13-31390; various reviews; expected issue date: FY 2013; work in
progress and new start)

Medical Equipment and Supplies—States’ Efforts To Control Costs for Disposable Incontinence Supplies
We will review the extent to which State Medicaid programs have implemented measures aimed at
controlling costs for disposable incontinence supplies. We will also determine the cost savings
created by these measures and the potential cost savings for States that have not implemented them.
(42 CFR § 440.70(b)(3).) (OEI; 07-12-000710 expected issue date: FY 2014; work in progress)



State Management of Medicaid
State Use of Provider Taxes To Generate Federal Funding
We will review State health-care-related taxes imposed on various Medicaid providers to determine
whether the taxes comply with applicable Federal requirements. Our work will focus on the
mechanism States use to raise revenue through provider taxes and determine the amount of Federal
funding generated. (OAS; W-00-12-31455; various reviews; expected issue date: FY 2013; work in
progress)

State-Operated Facilities—Reasonableness of Payment Rates
We will determine whether Medicaid payment rates to State-operated facilities are reasonable and
are in accordance with Federal and State requirements. We will determine in selected States the


                                               Page 47
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                      Appendix C—FY 2013 Medicaid Work Plan


extent to which payments to providers may be excessive. (OAS; W-00-12-31398; various reviews;
expected issue date: FY 2013; work in progress)

State Upper-Payment-Limit-Related Supplemental Payments to Private Hospitals
We will review supplemental payments by States to private hospitals to determine whether errors
exist in such payments. Federal funds are not available for Medicaid payments that exceed applicable
upper payment limits (UPL). (OAS; W-00-10-31126; W-00-11-31126; various reviews; expected
issue date: FY 2013; work in progress)

State Use of Incorrect Federal Medical Assistance Percentage for Federal Share Adjustments
We will review States’ Medicaid claims records to determine whether the States used the correct
Federal Medical Assistance Percentage when processing claim adjustments reported on the Medicaid
quarterly expenditure report (Form CMS-64). (OAS; W-00-12-31460; various reviews; expected issue
date: FY 2013; work in progress)

State Allocation of Medicaid Administrative Costs
We will review administrative costs claimed by several States to determine whether they were
properly allocated and claimed or directly charged to Medicaid. (OAS; W-00-10-31123;
W-00-11-31123; W-00-12-31123; various reviews; expected issue date: FY 2013; work in progress)

State Quarterly Expenditure Reporting on Form CMS-64—CMS Oversight
We will examine CMS’s oversight of State quarterly expenditure reporting on Form CMS-64. We will
also identify opportunities to improve the accuracy of such reporting. (OEI; 00-00-00000; expected
issue date: FY 2014; new start)

State Medicaid Monetary Drawdowns—Reconciliation With Form CMS-64
We will review the Medicaid monetary drawdowns that States received from the Federal Reserve
System to determine whether they were supported by actual expenditures reported by the States on
Form CMS-64. (OAS; W-00-12-31456; various reviews; expected issue date: FY 2013; work in
progress)

State Reporting of Medicaid Collections on Form CMS-64
We will determine whether States accurately captured Medicaid collections on Form CMS-64, as well
as returned the correct Federal share related to those collections. (OAS; W-00-12-31457; various
reviews; expected issue date: FY 2013; work in progress)

State Actions To Address Vulnerabilities Identified During CMS Reviews
We will review corrective actions that State Medicaid agencies have implemented to address the
findings and recommendations from State Medicaid program integrity reviews conducted by CMS.
We will determine why States have not implemented all corrective actions, examine the followup CMS
performed to ensure that corrective actions were taken by States, and examine the evidence CMS
reviewed to ensure that corrective actions were implemented. (OEI; 00-00-00000; expected issue
date: FY 2014; new start)

State Buy-In of Medicare Coverage—Eligibility Controls
We will review States’ Medicaid buy-in programs for Medicare Part B to determine whether States
have adequate controls to ensure that Medicare premiums are paid only for individuals eligible for
State buy-in coverage of Medicare services. (OAS; W-00-10-31220; W-00-11-31220;
W-00-12-31220; various reviews; expected issue date: FY 2013; work in progress)




                                               Page 48
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                      Appendix C—FY 2013 Medicaid Work Plan


State Medicaid Payments for Medicare Deductibles and Coinsurance
We will determine whether States claimed Federal reimbursement for Medicaid payments for
Medicare deductibles and coinsurance in excess of amounts authorized in the State plans. (OAS;
W-00-13-31464; various reviews; expected issue date: FY 2014; new start)

State Cost Allocations That Deviate From Acceptable Practices
We will review public assistance cost allocation plans and processes for selected States to determine
whether the States claimed Medicaid costs that were supported and allocated on the basis of random
moment sampling systems that deviated from acceptable statistical sampling practices.
(OAS; W-00-12-31467; various reviews; expected issue date: FY 2014; work in progress)

State Recovery Audit Contractor Performance and Results
We will review the early performance and results of Recovery Audit Contractors in State Medicaid
programs. (OEI; 00-00-00000; expected issue date: FY 2014; new start)

State Enrollment and Monitoring of Medical Equipment Suppliers
We will review State Medicaid agencies’ processes for enrolling and monitoring medical equipment
suppliers. We will conduct site visits to determine whether such suppliers complied with their State
Medicaid agencies’ enrollment standards. (OAS; W-00-12-31468; various reviews; expected issue
date: FY 2014; work in progress; Affordable Care Act)

State Determinations of Hospital Provider Eligibility and Program Participation
We will determine whether States appropriately determined hospital providers’ eligibility for
Medicaid reimbursement. Hospital providers are required to meet Medicare program participation
requirements to receive Medicaid funding. (OAS; W-00-12-31301; W-00-13-31301; various reviews;
expected issue date: FY 2013; work in progress)

State Compliance With Estate Recovery Provisions of the Social Security Act
We will determine whether States complied with requirements for recoveries from deceased
Medicaid beneficiaries’ estates. We will also determine whether States properly reported any such
recoveries on Form CMS‐64. (OAS; W‐00‐12‐31113; W‐00‐13‐31113; various reviews; expected issue
date: FY 2013; work in progress)

State Compliance With the Money Follows the Person Demonstration Program
We will review selected States’ compliance with the Money Follows the Person (MFP) rebalancing
demonstration program. We will determine whether States followed applicable requirements for
participating in the MFP program, such as providing qualified services to eligible participants.
(OAS; W-00-12-31461; various reviews; expected issue date: FY 2013; work in progress)

State Terminations of Providers Terminated by Medicare or by Other States
We will review States’ compliance with a new requirement that State Medicaid agencies terminate
providers that have been terminated under Medicare or by another State. We will determine whether
such providers are terminated by all States, assess the status of the supporting information-sharing
system, determine how CMS is ensuring that States share complete and accurate information, and
identify obstacles States face in complying with the termination requirement. (OEI; 06-12-00030;
expected issue date: FY 2014; work in progress; Affordable Care Act)

State Payments to Federally Excluded Providers and Suppliers
We will review Medicaid payments by States to providers and suppliers to determine the extent
to which payments were made for services rendered during periods of exclusion from Medicaid.
(OAS; W-00-11-31337; W-00-12-31337; various reviews; expected issue date: FY 2013; work in
progress)



                                               Page 49
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        Appendix C—FY 2013 Medicaid Work Plan


State Compliance With Federal Certified Public Expenditures Regulations
We will determine whether States are complying with Federal regulations for claiming certified
public expenditures, which are normally generated by local governments as part of their contribution
to the coverage of Medicaid services. (OAS; W-00-12-31110; various reviews; expected issue date:
FY 2013; work in progress)

State Procedures for Identifying and Collecting Third-Party Liability Payments
We will review States’ procedures for identifying and collecting third-party payments for services
provided to Medicaid beneficiaries to determine the extent to which States’ efforts have improved
since our last review. (OEI; 05-11-00130; expected issue date: FY 2013; work in progress)



Children’s Health Insurance Program
for Medicaid-Eligible Individuals
State Claims for Federal Reimbursement Under the Children’s Health Insurance Program for
Medicaid-Eligible Individuals
We will assess the appropriateness of a State’s claims for FFP under the State’s Children’s Health
Insurance Program (CHIP) program for individuals who were enrolled in the State’s Medicaid
program. (OAS; W-00-11-31314; W-00-12-31314; various reviews; expected issue date: FY 2013;
work in progress)

State Compliance With Eligibility and Enrollment Notification and Review Requirements for the
Children’s Health Insurance Program
We will review State compliance with the CHIP eligibility and enrollment notification and review
requirements. We will also determine whether beneficiaries remain enrolled during reviews of
suspension or after termination of enrollment. (OEI; 00-00-00000; expected issue date: FY 2014;
new start)



Medicaid Data Systems, Controls, and Claims Processing
Early Review of the Transformed Medicaid Statistical Information System Pilot Project
We will review CMS’s implementation of the Transformed Medicaid Statistical Information System
(T-MSIS) pilot project. We will also determine whether the pilot project is achieving results that will
make the new T-MSIS database useful for detecting fraud, waste, and abuse. (OEI; 05-12-00610;
expected issue date: FY 2013; work in progress)

Claims With Inactive or Invalid Provider Identifier Numbers
Given the vulnerabilities identified in Medicare, we will review Medicaid claims to determine the
extent to which State agencies have controls in place to identify claims associated with inactive or
invalid National Provider Identifiers, including claims for services alleged to have been provided after
the dates of the referring physicians’ deaths. (OAS; W-00-11-31338; various reviews; expected issue
date: FY 2013; work in progress)

Beneficiaries With Multiple Medicaid Identification Numbers
We will review duplicate payments made by States on behalf of Medicaid beneficiaries with multiple
Medicaid identification numbers and States’ procedures for preventing such payments.
(OAS; W-00-11-31374; W-00-12-31374; various reviews; expected issue date: FY 2013; work in
progress)




                                                Page 50
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                       Appendix C—FY 2013 Medicaid Work Plan


Use of the Public Assistance Reporting Information System To Reduce Instances of Payments by More
Than One State
We will review eligibility data from the Public Assistance Reporting Information System (PARIS)
to determine the extent to which States use PARIS to identify Medicaid recipients who are
simultaneously receiving Medicaid benefits in more than one State. We will also determine the extent
to which States investigate such instances and recover Medicaid payments for recipients determined
to be ineligible. (OEI; 09-11-00780; expected issue date: FY 2013; work in progress)

Management Information Systems Business Associate Agreements
We will review CMS’s oversight activities related to data security requirements of State Medicaid
Management Information Systems, which process and pay claims for Medicaid benefits. We will
determine whether business associate agreements have been properly executed to protect
beneficiary information, including safeguards implemented pursuant to Federal standards.
(OAS; W-00-13-41015; various reviews; expected issue date: FY 2013; new start)

Security Controls Over State Web-Based Applications
We will review States’ security controls over Web-based applications that allow Medicaid providers
to electronically submit claims to determine whether they contain any vulnerabilities that could
affect the confidentiality, integrity, and availability of the Medicaid claims’ protected health
information. (OAS; W-00-13-41016; various reviews; expected issue date: FY 2013; new start)

Security Controls at the Mainframe Data Centers That Process States’ Claims Data
We will review security controls at States’ mainframe data centers that process Medicaid claims data.
We will focus on security controls, such as access controls over the mainframe operating system and
security software. We will also review some limited general controls, such as disaster recovery plans
and physical security. (OAS; W-00-12-40019; W-00-13-40019; various reviews; expected issue date:
FY 2013; work in progress and new start)



Medicaid Managed Care
Beneficiary Access to Medicaid Managed Care
We will review how extensive managed care provider networks are for Medicaid managed care
beneficiaries. We will also describe State standards for primary and specialty care and will
determine beneficiaries’ access to certain primary and specialty care providers. (OEI; 02-11-00320;
expected issue date: FY 2014; work in progress)

Beneficiary Grievances and Appeals Process
We will review the extent to which States monitor Medicaid managed care entities’ (MCE) grievances
and appeals systems for compliance with Federal requirements. (OEI; 00-00-00000; expected issue
date: FY 2014; new start)

State Oversight of Provider Credentialing by Managed Care Entities
We will determine how States ensure that Medicaid MCEs' (specifically, managed care organizations
(MCOs)) prepaid inpatient health plans and prepaid ambulatory health plans comply with
credentialing and recredentialing requirements. We will also determine how CMS ensures that States
comply with provider-credentialing requirements. (OEI; 09-10-00270; expected issue date: FY 2013;
work in progress)

Managed Care Entities’ Marketing Practices
We will review State Medicaid agencies’ oversight policies, procedures, and activities to determine
the extent to which States monitor Medicaid MCEs’ marketing practices and compliance with Federal


                                               Page 51
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                        Appendix C—FY 2013 Medicaid Work Plan


and State contractual marketing requirements. We will also determine the extent to which CMS
ensures States’ compliance with Federal requirements involving Medicaid MCE marketing practices.
(OEI; 00-00-00000; expected issue date: FY 2014; new start)

Completeness and Accuracy of Managed Care Encounter Data
We will determine the extent to which Medicaid managed care encounter data included in Medicaid
Statistical Management Systems (MSISs) submissions to CMS accurately represent all services
provided to beneficiaries. We will also determine the extent to which CMS acted to enforce Federal
requirements that Medicaid managed care encounter data be included in MSIS. (OEI; 00-00-00000;
expected issue date: FY 2014; new start; Affordable Care Act)

Program Integrity—Medicaid Managed Care Organizations’ Identification of Fraud and Abuse
We will determine whether MCOs identified and addressed potential fraud and abuse incidents in
2011. We will also describe how States oversee MCOs’ efforts to identify and address fraud and
abuse. (OEI; 00-00-00000; expected issue date: FY 2014; new start)

Program Integrity—Managed Care Organizations’ Use of Prepayment Review To Detect and Deter
Fraud and Abuse
We will determine the extent to which Medicaid MCOs use prepayment reviews to detect and
deter fraud and abuse. We will also examine the results of MCO prepayment reviews, the challenges
addressed in developing and implementing the prepayment programs, and lessons MCOs learned
about them. Federal regulations require Medicaid MCOs to have administrative and management
arrangements or procedures that are designed to guard against fraud and abuse and that include
mandatory compliance plans and provisions for internal monitoring and auditing. (OEI;
00-00-00000; expected issue date: FY 2014; new start)

Medical Loss Ratio—Medicaid Managed Care Plans’ Refunds to States
We will review managed care plans with contract provisions that require that a minimum percentage
of total costs be expended for medical expenditures (medical loss ratio) to determine whether a
refund was made to the State agency when the minimum medical loss ratio threshold was not
met. (OAS; W-00-11-31372; W-00-12-31372; various reviews; expected issue date: FY 2013; work in
progress)



Other Medicaid-Related Reviews
Medicaid Overpayments—Credit Balances in Medicaid Patient Accounts
We will review patient accounts of providers to determine whether there are Medicaid overpayments
in accounts with credit balances. (OAS; W-00-11-31311; W-00-12-31311; various reviews; expected
issue date: FY 2013; work in progress)

Payment Error Rate Measurement Program—Error Rate Accuracy and Health Information Security
We will review CMS’s implementation of the Payment Error Rate Measurement (PERM) process to
determine whether it has produced valid and reliable error rate estimates for Medicaid and CHIP fee
for service, managed care, and eligibility. We will also review the physical and data security of health
information transmitted by various States for use in the PERM. We will also verify CMS’s actions to
implement recommendations from a March 2010 OIG review. (OAS; W-00-13-40046; various
reviews; expected issue date: FY 2013; new start)

Nursing Home Minimum Data Set—Accuracy and CMS Oversight
We will review CMS’s oversight of Minimum Data Set (MDS) data submitted by nursing homes
certified to participate in Medicare or Medicaid. We will also review CMS’s processes for ensuring



                                                Page 52
HHS Office of Inspector General
Medicaid Integrity Program Report, FY 2012                     Appendix C—FY 2013 Medicaid Work Plan


that nursing homes submit accurate and complete MDS data. (OEI; 00-00-00000; expected issue
date: FY 2014; new start)

Reviews of State Medicaid Fraud Control Units
We will review the overall management, operations, and performance of selected Medicaid Fraud
Control Units (MFCU). We will also determine the extent to which a State MFCU operates in
accordance with the 12 published performance standards and identify effective practices and areas
for improvement in the MFCU’s management and operations. (OEI; 00-00-00000; various reviews;
expected issue date: FY 2013; work in progress)




                               http://oig.hhs.gov




                                              Page 53
